<html>
<title> - LESSONS LEARNED FROM THE BOSTON MARATHON BOMBINGS: PREPARING FOR AND RESPONDING TO THE ATTACK</title>
<body><pre>[Senate Hearing 113-226]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 113-226

 
                    LESSONS LEARNED FROM THE BOSTON
     MARATHON BOMBINGS: PREPARING FOR AND RESPONDING TO THE ATTACK

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS


                             FIRST SESSION

                               __________

                             JULY 10, 2013

                               __________

        Available via the World Wide Web: http://www.fdsys.gov/

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs


                  U.S. GOVERNMENT PRINTING OFFICE
82-575                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="9dfaedf2ddfee8eee9f5f8f1edb3fef2f0b3">[email&#160;protected]</a>  


        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                  THOMAS R. CARPER, Delaware Chairman
CARL LEVIN, Michigan                 TOM COBURN, Oklahoma
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          RON JOHNSON, Wisconsin
CLAIRE McCASKILL, Missouri           ROB PORTMAN, Ohio
JON TESTER, Montana                  RAND PAUL, Kentucky
MARK BEGICH, Alaska                  MICHAEL B. ENZI, Wyoming
TAMMY BALDWIN, Wisconsin             KELLY AYOTTE, New Hampshire
HEIDI HEITKAMP, North Dakota         JEFF CHIESA, New Jersey

                   Richard J. Kessler, Staff Director
               John P. Kilvington, Deputy Staff Director
          Jason T. Barnosky, Senior Professional Staff Member
           Harlan C. Greer, Senior Professional Staff Member
               Carly A. Covieo, Professional Staff Member
         Mary Beth Schultz, Chief Counsel for Homeland Security
               Keith B. Ashdown, Minority Staff Director
         Christopher J. Barkley, Minority Deputy Staff Director
            Kathryn M. Edelman, Minority Senior Investigator
     Justin Rood, Director of Investigations for Homeland Security
                     Laura W. Kilbride, Chief Clerk
                   Lauren M. Corcoran, Hearing Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Carper...............................................     1
    Senator Coburn...............................................     2
    Senator Johnson..............................................    17
    Senator Ayotte...............................................    20
    Senator Chiesa...............................................    23
    Senator Begich...............................................    25
    Senator Baldwin..............................................    28
Prepared statements:
    Senator Carper...............................................    43
    Senator Coburn...............................................    44

                               WITNESSES
                        Wednesday, July 10, 2013

Hon. Richard Serino, Deputy Administrator, Federal Emergency 
  Management Agency, U.S. Department of Homeland Security........     4
Kurt N. Schwartz, Undersecretary for Homeland Security and 
  Homeland Security Advisor, Director, Massachusetts Emergency 
  Management Agency, Massachusetts Executive Office of Public 
  Safety and Security............................................     6
Edward F. Davis, III, Commissioner, Boston Police Department, 
  City of Boston.................................................     9
Arthur L. Kellermann, M.D., Paul O'Neill Alcoa Chair in Policy 
  Analysis, RAND Corporation.....................................    11

                     Alphabetical List of Witnesses

Davis, Edward, F., III:
    Testimony....................................................     9
    Prepared statement...........................................    65
Kellermann, Arthur L.:
    Testimony....................................................    11
    Prepared statement with attachment...........................    71
Schwartz, Kurt N.:
    Testimony....................................................     6
    Prepared statement...........................................    58
Serino, Hon. Richard:
    Testimony....................................................     4
    Prepared statement...........................................    47

                                APPENDIX

Responses to post-hearing questions for the Record:
    Mr. Serino...................................................    87
    Mr. Schwartz.................................................    91
    Mr. Davis....................................................    99


                    LESSONS LEARNED FROM THE BOSTON
     MARATHON BOMBINGS: PREPARING FOR AND RESPONDING TO THE ATTACK

                              ----------                              


                        WEDNESDAY, JULY 10, 2013

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:02 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Thomas R. 
Carper, Chairman of the Committee, presiding.
    Present: Senators Carper, Begich, Baldwin, Coburn, Johnson, 
Ayotte, and Chiesa.

              OPENING STATEMENT OF CHAIRMAN CARPER

    Chairman Carper. The hearing will come to order. Good 
morning, everyone. Good morning to our witnesses and those who 
have joined us, those who are seated and those especially who 
are standing.
    A little less than 3 months ago, the city of Boston--where 
my oldest son, Christopher, went to college--the city of Boston 
suffered a horrific terrorist attack during the 117th Boston 
Marathon. Ironically, he was there--not as a runner, although 
he is a runner. He was actually there for the race. A lot of 
people came in from across the country to Massachusetts 
Institute of Technology (MIT) and other schools just to be 
there and to help be part of the celebration. The attack 
claimed the lives, as we know, of three observers and injured 
close to 300 people.
    As the events of April 15 unfolded, we wrestled with the 
fact that we were witnessing the first successful terrorist 
bombing on U.S. soil since the September 11, 2001 terrorist 
attacks. Just as we did in the aftermath of September 11, 2001, 
we must learn from the Boston Marathon bombing. That is why 
this Committee has set out to unearth the lessons learned from 
this act of terrorism. At a future time, this Committee will 
look at whether this tragedy could have been prevented. Later 
this year, we will be looking at that. However, today's hearing 
will focus on the emergency response to the events that 
occurred on April 15, 2013.
    We will examine the preparations made by the city of Boston 
and by the Commonwealth of Massachusetts to deal with a crisis 
of this nature. We will also assess how the city, State, and 
Federal Government responded once Boylston Street was rocked by 
the two homemade explosives.
    For more than a decade, our country has worked to promote 
effective emergency response systems that help cities and 
States to mitigate the effects of a terrorist attack. In the 
years since September 11, 2001, we have learned that it takes 
preparation, it takes training, it takes effective leadership, 
and a coordinated response plan to minimize the impact and 
devastation caused by disaster.
    By all accounts, Boston had many of these elements in place 
on April 15, and lives were saved as a result. Today's hearing 
will take a step toward identifying the lessons learned from 
the preparedness for and response to the marathon attacks. We 
will look at what worked, what we could have done better, and 
how what happened in Boston can help prepare communities across 
the country to deal effectively with emergencies.
    To help shed light on the lessons learned from the attack, 
we have with us three key officials who were on the ground on 
the day of the attack. We are also joined by an emergency 
management expert who has studied the response to the marathon 
bombing.
    We look forward to hearing from each of you and working 
with you and others in the coming weeks and months to 
strengthen our preparedness and response systems across the 
United States.
    As Dr. Coburn joined us, I will just close with this. My 
colleagues have heard me say probably more times than they want 
to count, one of my core values is to focus on excellence in 
everything we do, and I like to say everything I do I know I 
can do better. And the key for us is if it is not perfect, make 
it better. And as well as a lot of people responded 
effectively, people responded on the day of the disaster, the 
tragedy in Boston, we know we can do better. And the key is for 
us to figure that out, to take what lessons learned we can to 
export them across the country in ways that are appropriate.
    With that, Dr. Coburn, welcome.

              OPENING STATEMENT OF SENATOR COBURN

    Senator Coburn. Thank you, Senator Carper, and I apologize 
for being late. Welcome to each of you, and thank you for what 
you do. I will have a full statement for the record. I look 
forward to hearing your comments and your testimony as well as 
asking you some pertinent questions about what we have done in 
the past, what has helped and what has not, and what has been 
effective and what has not.
    Thank you.
    Chairman Carper. Thanks, Dr. Coburn.
    Dr. Johnson--I always call him ``Dr. Johnson.'' He is not 
really a doctor. He is like me. He is just a regular guy. Nice 
to have you with us, Ron.
    What I am going to do is briefly introduce the witnesses 
and ask each of you to share with us your statement. Then we 
will have others show up on our side and have some good 
conversation.
    Our first witness is Richard Serino--no stranger here--
Deputy Administrator of the Federal Emergency Management Agency 
(FEMA), and prior to this appointment, Mr. Serino served as the 
chief of Boston Emergency Medical Service (EMS) and assistant 
director of the Boston Public Health Commission. He served as 
an incident commander for over 35 mass casualty incidents and 
for all of Boston's major planned events, including the Boston 
Marathon. We thank you for joining us today and for your 
service. We look forward to your testimony.
    Our next witness is Kurt Schwartz. Mr. Schwartz is the 
Undersecretary for Homeland Security and Emergency Management 
for the Commonwealth of Massachusetts. He is also the director 
of the Massachusetts Emergency Management Agency (MEMA) and 
serves as the homeland security advisor to Massachusetts 
Governor Deval Patrick. Prior to holding these positions, Mr. 
Schwartz served as Assistant Attorney General and Chief of the 
Criminal Bureau in Massachusetts. In addition to working as a 
prosecutor in Massachusetts, Mr. Schwartz has also served as a 
police officer and as an emergency technician. We thank you for 
joining us today and for your services to the people of the 
Commonwealth of Massachusetts.
    Next, Mr. Ed Davis--nice to see you, Mr. Davis--currently 
Commissioner of the Boston Police Department. Mr. Davis became 
the Commissioner in December 2006 after serving as a 
superintendent of the Lowell Police Department for 12 years.
    Do they have a marathon in Lowell?
    Mr. Davis. They do have racing events, sporting events, but 
not a marathon.
    Chairman Carper. OK. He has been in law enforcement for 35 
years, and on the day of the marathon bombing in Boston, Mayor 
Menino appointed Police Commissioner Ed Davis as the head of 
the unified command, putting him in charge of the overall 
response effort. Commissioner Davis, we want to welcome you 
and, again, thank you for your service.
    Our final witness is Dr. Arthur Kellermann, an expert in 
disaster management. Dr. Kellermann is Vice President and 
Director at the Research AND Development (RAND) Health. Prior 
to holding this position, he was professor of emergency 
medicine and associate dean of health policy at the Emory 
School of Medicine. He was also the founding chairman of 
Emory's Department of Emergency Medicine and the Center for 
Injury Control at Rollins School of Public Health. Dr. 
Kellermann's research at RAND Health focuses on public health 
preparedness, injury prevention, and emergency health services. 
Dr. Kellermann, we thank you for joining us today. I believe 
Dr. Coburn and his staff recommended that you be invited as a 
witness, and we are glad you could join us.
    And we are glad that Senator Ayotte could join us as well.
    Now we have four on our side, four on your side; I think we 
are ready to go. So we are man on man, something along those 
lines.
    You are invited to give us your statement. Feel free to 
summarize it. If you would, try to stick to about 5 minutes. If 
you go way beyond that, we will have to rein you in. But your 
entire statement will be made part of the record, and with 
that, Mr. Serino, you are our lead-off hitter. Thank you.

TESTIMONY OF THE HON. RICHARD SERINO,\1\ DEPUTY ADMINISTRATOR, 
    FEDERAL EMERGENCY MANAGEMENT AGENCY, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Serino. Thank you. Chairman Carper, Ranking Member 
Coburn, and Members of the Committee, good morning. I am 
Richard Serino, Deputy Administrator of FEMA. And on behalf of 
Secretary Napolitano and Administrator Craig Fugate, I welcome 
the opportunity to be here to discuss the Boston Marathon 
bombing. As mentioned, I was in Boston on that tragic day in 
April celebrating Patriots' Day in my hometown, so I am here 
today not just as the FEMA Deputy Administrator but as a 
Bostonian and a former paramedic.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Serino appears in the Appendix on 
page 47.
---------------------------------------------------------------------------
    On April 15, Patriots' Day and the Boston Marathon come 
together to create a day like no other in Boston. We pause to 
celebrate our heritage, and our streets fill with millions of 
residents and visitors from down the block and around the 
world. For most of my life, I worked those same streets for 
Boston EMS, ending a 36-year career as chief of the department 
in 2009.
    There were many nights I went home proud of the Boston 
first responder team, but never more proud of them and the 
residents of my town that day in April. While in one moment we 
saw terror and brutality, in the next moment we saw the 
community's love and compassion. We saw our emergency medical 
technicians (EMT), police officers, firefighters, paramedics, 
and emergency managers spring into action and perform what they 
do heroically.
    As Tip O'Neill used to say, ``All politics are local.'' We 
also know that all disasters are local. And Boston was no 
exception. But FEMA is proud to support communities like Boston 
in their efforts to prepare for, respond to, recover from, and 
mitigate against whatever hazards they may face.
    As the medical incident commander in Boston, as you 
mentioned, for over 35 mass casualty incidents and for all of 
the city's major planned events, including the marathon, I can 
assure the Committee that planning and coordination at the 
local, State, and Federal level played a critical role in 
ensuring a well-executed response that did, in fact, save 
lives. I am also here today to express and discuss how FEMA in 
part played a role in making the people on the ground more 
prepared that day.
    On April 15, Americans witnessed the strength of the whole 
community--people coming together to help each other and making 
our collective response that much more effective and efficient. 
Whole Community is an approach to emergency management that 
reinforces the fact that FEMA is only part of the emergency 
management team, that we must leverage all of our resources and 
tap into the collective strength of our citizens in times of 
crisis.
    That April day, we saw how FEMA's approach to national 
preparedness helped empower and strengthen the whole community, 
including the city of Boston and the Commonwealth of 
Massachusetts. Through our preparedness resources, including 
our training, exercise, technical assistance, and community 
preparedness programs, we helped ensure that the people who 
responded had the tools and the equipment to be effective. 
Immediately following the event, FEMA collaborated with our law 
enforcement, public safety, and Federal partners and were ready 
to help when the President issued a disaster declaration for 
the affected communities.
    Many of the capabilities demonstrated that day in the 
immediate aftermath were built, enhanced, and sustained through 
FEMA's preparedness grants. As a former paramedic and chief, I 
can attest to the importance of preparing our public safety and 
emergency management personnel and the public for all-hazard 
contingencies. Both Boston and Massachusetts invested Federal 
grant funds in systems that were critical during the response, 
including helping stand up an emergency patient tracking 
system, a web-based application that facilitates incident 
management, and the system made a difference on April 15.
    Boston EMS used FEMA preparedness grants to invest in mass 
casualty medical supplies and equipment. They were critical and 
crucial in responding to the bombing survivors.
    The Massachusetts State Police used a forward-looking 
infrared imaging unit they purchased with these funds to search 
for, locate, and apprehend the surviving bombing suspect. These 
grants were also leveraged for onsite security and protection, 
including much of the equipment that was used during the event, 
such as bomb robots, X-ray equipment, and ballistic helmets and 
vests.
    First responders from Boston and across the country plan, 
train, and exercise through support from FEMA, making them more 
equipped for the communities during real-world incidents. Since 
2000, thousands of Boston area responders have received 
training from the Emergency Management Institute, the United 
States Fire Academy (USFA), and FEMA partners. Boston also used 
FEMA funds to train Special Weapons and Tactics (SWAT) teams to 
better integrate bomb technicians into tactical operations, a 
crucial capability that was demonstrated in Boston.
    Medical personnel were trained and exercised in how to 
respond to a mass casualty incident. It was no accident that 
not a single hospital in the city was overwhelmed with patients 
in the aftermath of the bombings. It was no accident that 
patients were appropriately treated, triaged, and transported 
in an orderly manner to appropriate hospitals based on their 
needs. All these exercise and training sessions also allowed 
key personnel to develop critical relationships. As the saying 
goes, you never want to be ``exchanging business cards'' at the 
scene of a disaster, and people knew each other well 
beforehand.
    FEMA prides itself on continually improving our approach 
and focusing on further strengthening collective preparedness 
to meet the evolving threats. We know that we can never replace 
Krystle Campbell, Lu Lingzi, Martin Richard, or Sean Collier, 
whose lives were lost and we continue to mourn. We can take 
some solace in the fact that our collective approach and the 
years of planning we did as a Nation on the local, State, and 
Federal level helped first responders on the ground that day 
and, in fact, saved lives. We also owe it to those who we lost 
and those who were injured to keep improving. We will work with 
all the partners across this great country to honor and to 
continue moving forward.
    Mr. Chairman, Senator Coburn, Members of the Committee, I 
look forward to answering questions.
    Chairman Carper. Thank you very much for that testimony. 
Mr. Schwartz.

 TESTIMONY OF KURT N. SCHWARTZ,\1\ UNDERSECRETARY FOR HOMELAND 
SECURITY AND HOMELAND SECURITY ADVISOR, DIRECTOR, MASSACHUSETTS 
EMERGENCY MANAGEMENT AGENCY, MASSACHUSETTS EXECUTIVE OFFICE OF 
                   PUBLIC SAFETY AND SECURITY

    Mr. Schwartz. Good morning. Chairman Carper, Ranking Member 
Coburn, and Members of the Committee, on behalf of Governor 
Patrick, I thank you for this opportunity to share thoughts on 
the public safety response to the Boston Marathon bombings and 
the ensuing manhunt that together resulted in the deaths of 
four people and injuries to hundreds more.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Schwartz appears in the Appendix 
on page 58.
---------------------------------------------------------------------------
    The response to the marathon bombings once again 
demonstrates the value of our investments in local, State, and 
Federal homeland security. Within seconds of the bomb blasts, 
an array of personnel, resources, and capabilities--many funded 
with Federal homeland security grant dollars--were mobilized 
and deployed.
    First responders, aided by the public, swiftly provided on-
scene emergency medical care to the injured, and EMS providers 
followed established plans to triage and transport the wounded 
to area trauma centers. Our trauma centers were prepared and 
followed existing mass casualty plans to swiftly and 
effectively treat the wounded. Indeed, at least two of our 
trauma centers report that critically injured patients were in 
operating rooms within just 15 to 18 minutes of receiving them 
in their emergency departments.
    Tactical and other specialized teams, many of which 
deployed into Boston under established mutual aid agreements, 
conducted chemical, biological, radiological nuclear (CBRN) 
monitoring, searched for additional explosive devices, secured 
our regional transit systems and other critical infrastructure, 
established a large security zone, and secured the crime scene. 
A forward command center was established, first on the street 
and then in a nearby hotel.
    Political and public safety leaders began communicating 
with the public through alerting systems, social media, and 
traditional media. The Boston Police, supported by the State 
Police, working with our two fusion centers, immediately 
launched a criminal investigation, and in only a matter of 
hours combined their efforts and resources with those of the 
Joint Terrorism Task Force (JTTF) as the Federal Bureau of 
Investigations (FBI) took charge.
    The speed by which Boston's public safety agencies 
responded, supported by regional, State, and Federal partners, 
is a testament to outstanding leadership and smart homeland 
security investments.
    The Boston Marathon passes through seven cities and towns 
and three counties before ending on Boylston Street in Boston. 
For our local, regional, and State public safety officials, the 
marathon is one of our greatest annual events, drawing close to 
a million spectators, and we appropriately dedicate substantial 
planning and operational resources to protect, as best we can, 
the runners and spectators at the eight host cities and towns. 
These extensive planning and preparedness efforts are intended 
to ensure readiness to respond to any and all unexpected 
hazards that threaten health, safety, or property.
    On April 15, the public safety community was prepared. As 
we have done for many years, a multi-agency, multi-discipline 
team spent months developing the operational plans for this 
year's marathon. We did worst-case scenario planning, preparing 
for a wide array of incidents and events that might impact the 
marathon or their communities. In early April, we conducted a 
comprehensive tabletop exercise to ensure our readiness.
    On race day, the State's Emergency Operations Center (EOC) 
hosted an 80-person, multi-agency coordination center that was 
staffed with representatives of the police, fire, and EMS 
agencies of the eight cities and towns along the course, along 
with a dozen other key State and Federal public safety 
agencies. The Operations Center was also connected to Emergency 
Operations Centers in all eight cities and towns, and first 
responders along the course and command-level personnel from 
all local, State, and Federal public safety agencies were using 
interoperable channels on portable radios to maintain effective 
communications.
    Along the course, local, regional, and State tactical 
teams, hazardous materials response teams, explosive ordinance 
disposal teams, the National Guard Civil Support Team, mobile 
command posts, and State Police helicopters were deployed as 
part of an all-hazards operational plan.
    In short, we were prepared, and our high levels of 
preparedness were due to investments made in collaboration with 
Governor Patrick's administration over the past years using 
Federal homeland security grant dollars; a longstanding 
commitment to multi-agency, multi-discipline, and multi-
jurisdictional training and exercises throughout the State; a 
strong record of collaboration, coordination, and cooperation 
by public officials and public safety leaders; an unwavering 
24/7 commitment to homeland security by all local, regional, 
State, and Federal public and private sector stakeholders; and 
lessons learned from local, regional, and State responses to 
hurricanes, tropical storms, blizzards, ice storms, floods, 
tornadoes, and a massive water system failure that had resulted 
in the Commonwealth receiving 16 Presidential Disaster 
Declarations since 2005.
    Even as we work our way through a comprehensive after-
action review process, several common themes stand out as we 
assess our response. Foremost, there is a clear correlation 
between the effectiveness of response operations and local, 
regional, and State investments in training, exercise programs, 
incident command system, building and sustaining specialized 
capabilities, activating and operating emergency operations 
centers, as well as our longstanding focus on developing 
regional response capabilities.
    There are several other key factors that contributed to the 
effectiveness of response operations.
    The response relied heavily on specialized capabilities 
that have been built and sustained through our homeland 
security grant programs.
    The response to the bombings was augmented through pre-
existing mutual aid agreements.
    Interoperability was a huge success story. The millions of 
dollars that we have spent over the past years on 
interoperability ensured effective communication.
    We benefited from a history of using pre-planned events 
like the marathon as real-life opportunities to exercise and 
utilize our homeland security capabilities and to strengthen 
personal and professional relationships.
    We also benefited from investments in regional exercise 
programs, such as the Urban Shield exercises conducted by the 
Boston Urban Area Security Initiative (UASI).
    The cooperation and collaboration across agencies, 
disciplines, and jurisdictions was immediate and extraordinary.
    Existing strong relationships between the Commonwealth 
Fusion Center, the Boston Regional Intelligence Center (BRIC), 
and the FBI's Joint Terrorism Task Force allowed the State 
Police and the Boston Police Department to quickly integrate 
into the post-bombing investigation that was led by the FBI.
    The support from the Federal Government was immediate and 
effective. On the law enforcement side, every imaginable 
Federal agency dispatched personnel and resources, and on the 
emergency management side, FEMA and the Department of Health 
and Human Services (HHS) had senior people in our command 
center in Boston only hours after the bombings, including 
Deputy Serino.
    Local and State public safety agencies effectively 
communicated with the public through social media, reverse 911 
systems, press releases, press conferences, emergency alerting 
Smart Phone apps; and for the first time in Massachusetts, we 
utilized the new Wireless Emergency Alert (WEA) Service.
    And the response by the public to the bombings and the 
ensuing hunt for the suspected terrorists was nothing short of 
incredible. The public heeded requests and directions from 
Governor Patrick, Mayor Menino, and the public safety leaders, 
including the unprecedented request on April 19 that residents 
of Boston, Watertown, and four other communities remain 
indoors.
    In closing, as previously mentioned, we are in the process 
of conducting a comprehensive local, regional, and State after-
action review. At the end of this process, an After Action 
Report and corrective action plans will be published. We will 
continue to identify what worked well, where there is need for 
improvement, and gaps that need to be addressed through 
training, exercises, planning, and homeland security 
investments.
    Even as we move through the after-action process, I can 
confidently state that our investments made with homeland 
security dollars undoubtedly enhanced our capability to respond 
to these tragic events.
    Thank you.
    Chairman Carper. Thanks so much for joining us. Thanks for 
that testimony very much.
    Mr. Davis, welcome. Please proceed.

  TESTIMONY OF EDWARD F. DAVIS, III,\1\ COMMISSIONER, BOSTON 
               POLICE DEPARTMENT, CITY OF BOSTON

    Mr. Davis. Thank you, Mr. Chairman.
    Good morning, Chairman Carper, Ranking Member Coburn, 
distinguished Members of the Committee. On behalf of Mayor 
Thomas Menino, I would like to thank you for the opportunity to 
testify today about the impact of the terrorist bombing at the 
Boston Marathon on Patriots' Day, April 15, 2013.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Davis appears in the Appendix on 
page 65.
---------------------------------------------------------------------------
    On that day, at 2:50 p.m., two bombs exploded 12 seconds 
and 550 feet apart near the finish line of the Boston Marathon. 
Two terrorists killed three people at the scene: 8-year-old 
Martin Richard and 23-year-old Lu Lingzi, a graduate student at 
Boston University in front of the Forum Restaurant; and 29-
year-old Krystle Campbell at the finish line.
    There were multiple amputations. Every ambulance and police 
transport vehicle available transported nearly 300 people to 
world-class hospitals. Within 22 minutes, the scenes were 
cleared and a 12-block perimeter was set. All 19 victims 
admitted in critical condition survived due to exceptional 
medical care and the use of tourniquets by civilians and first 
responders.
    The perpetrators were identified in video footage, and the 
photos were publicly released on Thursday evening, April 19. 
The release of these photos started a rapid chain of events: 
the execution of MIT police officer Sean Collier; a carjacking 
and pursuit that ended in Watertown that included shots fired 
at my officers and explosives thrown; a shoot-out with the 
bombers, leading to the critical injury of Officer Richard 
Donohoe.
    One terrorist, Tamerlan Tsarnaev, was killed, and the 
other, Dzhokhar Tsarnaev, fled. A massive manhunt for Tsarnaev 
ensued in a 20-block perimeter. This included a citywide 
shelter-in-place request that began in Watertown and extended 
to all of Boston, as well as house-to-house searches throughout 
Watertown, the discovery and arrest of Tsarnaev in a Watertown 
boat stored in a backyard.
    Both terrorists were captured within 102 hours from the 
time of the initial explosions. This success was the direct 
result of dedicated training, an engaged and informed public, 
and an unprecedented level of coordination, cooperation, and 
information sharing on the line by local, State, and Federal 
agencies.
    I would like to thank President Obama and his 
Administration, particularly the Department of Homeland 
Security (DHS) and the Department of Justice (DOJ), for the 
invaluable assistance Boston received before, during, and after 
this tragic event. Preparedness training provided through the 
UASI and other Federal funding set a framework for multiple 
jurisdictions to work with one another in a highly effective 
manner. These agencies, including EMS and medical personnel, 
utilized federally funded Urban Shield training exercises and 
several tabletop exercises to collaborate in scenarios similar 
to those that occurred during the investigation. The importance 
of this training is best illustrated in the efficiency and 
success of the response and subsequent investigation. These 
trainings and testing procedures revealed operational issues 
and allowed us to correct them prior to April 15.
    UASI funding also provided highly trained analysts in the 
Boston Regional Intelligence Center. They are critical to the 
department's daily decisionmaking, intelligence gathering, 
deployment and information flow, coordination and communication 
with law enforcement and other first responders.
    Boston also received important technology that would not be 
possible without the Federal funding. Command posts, armored 
vehicles, robots, and other safety equipment contributed to the 
safety of my officers and other officers in the Boston area and 
the success of the investigation.
    While all agencies' trainings and equipment worked as 
seamlessly as possible on the ground, it is clear that there is 
a need for improvement in our communication and information 
sharing with Federal partners. In the aftermath of the Boston 
bombings, the FBI improved information sharing. But policies 
and practices for information and intelligence sharing must be 
consistent across all JTTFs. The current language of the JTTF 
memorandum of understanding (MOU) should be reviewed, including 
its restrictions and suggested changes to the language and 
practices that members of the Major Cities Chiefs (MCC) 
Association believe need to be addressed. Chiefs want to 
strengthen the partnership between the Department of Justice, 
the Department of Homeland Security, and the police in urban 
areas.
    For example, the association proposes regular briefings by 
Federal agencies on any and all threats to the community. These 
revisions are critical as we all work to prevent further 
violent extremist attacks in this country.
    We are also meeting with the Senate Intelligence Committee 
to examine how best to share classified threat intelligence and 
other matters that I cannot address in an open hearing.
    Another challenge that occurred immediately after the 
explosions was the overload to the cell phone system. They were 
rendered completely useless as a means of communication at the 
scene. The capacity of the cell phone companies was overrun by 
public usage, forcing first responders to rely exclusively on 
radios. Based on this experience, satellite phone technology is 
not effective because of command posts being inside. 
Communications assistance from the Department of Homeland 
Security is an example of how this Committee has made a 
difference. The DHS Office of Emergency Communications 
conducted an exercise during a previous Boston Marathon to test 
and train for communications interoperability. Based on lessons 
learned from this DHS assistance and funding for technology, 
our emergency radio communication systems worked without 
incident, even though all cell phones went down during the 
crisis. In the past, police, fire, and EMS personnel would not 
have been able to communicate because of different radio 
systems.
    I want to reiterate that law enforcement needs a common and 
secure radio bandwidth and a public safety spectrum dedicated 
exclusively to public safety use as it is the only way to 
communicate during an event of this magnitude. We thank 
Congress for approving the D Block and look forward to working 
with FirstNet and the Department of Commerce to implement this 
long overdue legislation.
    Boston and our partner agencies rose to the challenge we 
faced and in large part were successful, based on the support 
and assistance from the community.
    I appreciate the opportunity to discuss, reflect, and 
provide lessons learned that may assist my colleagues across 
the Nation and the world. Thank you.
    Chairman Carper. Thank you very much, Mr. Davis. Dr. 
Kellermann.

TESTIMONY OF ARTHUR L. KELLERMANN,\1\ M.D., PAUL O'NEILL ALCOA 
           CHAIR IN POLICY ANALYSIS, RAND CORPORATION

    Dr. Kellermann. Chairman Carper, Ranking Member Coburn, and 
distinguished Members of the Committee, thank you for inviting 
me here today. I am Art Kellermann. I am an emergency 
physician, and I am not from Boston.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Kellermann appears in the 
Appendix on page 71.
---------------------------------------------------------------------------
    We have all heard the adage, ``It is better''----
    Chairman Carper. How about South Boston?
    Dr. Kellermann. Yes, sir. [Laughter.]
    We have all heard the adage that, ``It is better to be 
lucky than good.'' Boston's responders were both lucky and 
good. That is why so many victims survived.
    Several chance factors worked to the rescuers' favor, most 
notably when, where, and how the attacks occurred. But Boston's 
responders were also very good. Bystanders, runners, and 
spectators played a key role, particularly in the first minutes 
after the attack.
    A few years prior to the attack, Boston EMS, fire, and 
police personnel studied how London, Madrid, Mumbai, and other 
cities had handled their terrorist attacks, what they did well, 
what did not go well, and they adjusted their plans to respond 
to lessons learned in those cities and incorporated it into 
their plan.
    Boston's hospitals did a great job because they were 
prepared to do a great job. They reacted with speed and 
precision because everyone knew what to do. That is how 
disaster plans work.
    But these observations lead to an important point. The fact 
that Boston was lucky and good does not mean that the next 
American city that is hit will be equally lucky or equally 
good. We cannot assume, based on Boston's performance, that 
other U.S. cities are prepared to manage a terrorist attack of 
similar, much less greater magnitude. In fact, there is ample 
reason to worry.
    Across the Nation, emergency room crowding is as bad as 
ever. It not only limits surge capacity; it compromises patient 
safety on a day-to-day basis. Some communities and some 
hospitals have taken their eye off the ball, and not every 
community has the spirit of Boston where health and public 
safety work together as a team.
    Now, disaster preparedness is largely a State and local 
responsibility, but the Federal Government has an important 
role to play. Your letter of invitation asked that I 
specifically comment on two areas: research and grantmaking. I 
will address research first and then grants.
    Last year, RAND published the first ever inventory of 
national health security research funded by civilian agencies 
of the U.S. Government. We found that the current portfolio is 
heavily skewed toward biological threats. Two-thirds of the 
studies, a thousand different projects, address that topic, 
while natural disasters like hurricanes, earthquakes, and 
tornadoes were the focus of only 10 percent of studies. 
Terrorist bombings, 4 percent.
    One reason for the heavy coverage of one threat versus the 
other is that the agencies today do not have a simple way to 
determine who is funding what or to prioritize which questions 
are most urgent for responders in the field. As a result, we 
are not getting top value for our dollar.
    Now, RAND's work has been largely concentrated in HHS 
rather than DHS, so I cannot speak specifically to DHS' 
approach. But I can tell you based on our prior work and 
experience with grants that performance measures that focus on 
what has been bought and what has been taught are not as 
useful, by and large, as those that measure whether States and 
municipalities are building the core capabilities they need to 
respond to a disaster or a large-scale attack.
    Now, let me cite an example from the world of public 
health. It is one thing to ask States and municipalities to 
self-report if they have established a 24-hour-a-day dedicated 
phone line that health care workers can call to report a 
potential biological threat. It is quite another to 
independently determine if that phone line gets answered at 2 
o'clock in the morning, how long it takes for somebody to come 
back with information, and whether the advice that is offered 
makes sense. The first is a capacity; the second is a 
capability.
    Disaster drills are another issue. Expensive, prescripted 
exercises, whether they are run by the hospital or in the 
community, are substantially better than nothing, but they are 
less useful for assessing capabilities than you can do with 
inexpensive, no-notice drills, tabletop exercises, secret 
shopper evaluations like the one I just described, and 
systematic learning from real-world events, small as well as 
large.
    Now, the goal of these exercises is not to make hospitals 
or communities or States look bad, but to help everybody 
elevate their game so they will be ready when the big one 
happens. Congress can help by encouraging Federal agencies to 
promote team work at the local, the State, and the Federal 
level and by focusing on practical measures that test and 
improve the capability to respond.
    Now, here is my bottom line. Boston responders deserve our 
praise, but let us do more than pat them on the back. Let us 
follow their example. Boston learned from the experiences of 
London, Madrid, and Mumbai. The rest of us can learn from 
Boston.
    Thank you.
    Chairman Carper. Thank you, Dr. Kellermann, and, Dr. 
Coburn, thanks for inviting him.
    I just want to start off, before I ask a question, and 
speaking maybe for myself, maybe for my colleagues as well, the 
idea, the thought that this terrible tragedy occurred, three 
people were killed, declared dead on the scene. Everybody who 
made it, roughly 300 people who made it to a hospital lived. 
Some of those people had no pulse, and they were saved. They 
are alive today. Some of the lives, many of the lives will be 
changed forever. Hopefully they will continue to have the kind 
of support to move on in their lives as they received that day, 
support of a different kind. But the team of paid 
professionals, volunteers, bystanders who pulled together as 
one was just extraordinary.
    When we gather in the Senate chamber later today to vote, 
right over the head of the presiding officer in the Senate and 
in the House are just about the only Latin words I know: E 
pluribus unum. From many, one. And, boy, in Boston, from many, 
one. Extraordinary, and thank you for reminding us of that.
    I like to say that the road to improvement is always under 
construction. Everything we do we know we can do better. I am 
just going to start and ask each of you to give us an example 
of one lesson from the tragedy in Boston that can be exported, 
should be exported to other communities, to other cities in our 
country. Just give us one really good example of what can be 
exported. Mr. Serino.
    Mr. Serino. I would say one is to ensure that the training 
and the relationships are done ahead of time. I think that the 
fact they are using these special events--planned disasters, if 
you will--is absolutely key. Because every community, large or 
small, across the country has events, whether it be on recently 
the 4th of July--and I happened to be there with Kurt up in 
Boston on the 4th as well. And building those relationships 
during a special event, because you know you are going to have 
numbers of people who are going to be concentrated; you are 
going to have a lot of these different groups of people coming 
together, and you have to be able to--for example, the 4th of 
July and the marathon, people are going to get sick or injured, 
but maybe not to the quantity, but building that and testing 
that and making sure the people have the training and the 
exercises and the equipment to do that.
    So I think that taking the lessons learned from that as a 
whole community approach, bringing all the different partners 
together, as I mentioned, it was no accident that people went 
to different hospitals. It was no accident that they were 
treated on scene. It was no accident that they used 
tourniquets, because that is the training and the exercise that 
happens both at the special events using those and 
incorporating them into what we do each and every day, and that 
has been being done in Boston for years and should be done 
across the country.
    Chairman Carper. Thank you. Mr. Schwartz.
    Mr. Schwartz. Well, I will build on that. So in addition to 
the training and exercises and the worst-case scenario 
planning, we have to translate--and we do in Boston, we did for 
the marathon, we do for July 4th we have to translate that into 
worst-case scenario response capabilities. It is one thing to 
plan for a worst-case scenario, but on game day you need to be 
ready to act very quickly.
    So on marathon day, we had all of the operational capacity 
across eight cities and towns to respond to these worst-case 
scenarios. We had a multi-agency coordination center stood up, 
80 participants, dozens of agencies; and as I said in my 
prepared statement, across all eight cities and towns, we had 
all sorts of resources that many people would say, ``Why are 
they out there? This is a marathon. Why do you have Special 
Tactical Operations (STOP) teams, SWAT teams, ordnance disposal 
teams and K-9s, helicopters, CBRN monitoring? It is all very 
expensive to deploy.'' Well, that is building that worst-case 
scenario operational capacity and capability so that when the 
bombs went off, there was not a delay. The reaction was 
immediate. The response was immediate.
    So I am just building on the worst-case scenario planning 
to be able to implement that planning on a moment's notice.
    Chairman Carper. All right. Thank you.
    Mr. Davis, please.
    Mr. Davis. Senator, my colleagues here have mentioned 
training and equipment and being prepared, and I think that 
those are the two most important things. I am going to talk 
just a bit about communication, but not radio communication. I 
have already addressed that in my statement. I am talking about 
communication with the community.
    Chairman Carper. Let me just ask a question. When I was 
Governor, we installed Statewide an 800-megahertz system to 
deal with the interoperability so State police could talk to 
fire could talk to all kinds of emergency responders. It took a 
while to stand it up, finally got it straightened out. Do you 
all use a similar system? What do you use?
    Mr. Schwartz. There is an 800 system being used by the 
State police; however, we are still in the 400 ultra high 
frequency (UHF) area. We have cobbled together a system that 
works very well, being able to patch all the different agencies 
together. But because of the danger of losing these frequencies 
in the near future, we really need to put a plan together to 
continue that capability.
    Chairman Carper. OK. Thank you.
    Mr. Davis. But let me speak about social media and the old 
adage that you cannot establish a relationship during a crisis. 
We have a significant presence on social media where we have 
engaged not only in a one-way communication but in a dialogue 
with people in the community about all sorts of issues day in 
and day out. We were able to use social media effectively in 
the minutes after the blast to inform people as to where they 
could go, as to what happened, where they could meet loved 
ones. There was an enormous amount of upset in the community, 
and we used social media to tamp that down. We also used it to 
do outreach to the community to provide us clues and video and 
photos of the bombers. And then we used it to correct things 
that had been reported badly by the media.
    So I guess my point is a substantial investment in the 
utilization of social media to do direct outreach from public 
safety organizations to the community can really help in any 
kind of an event that happens like this. When the cell phones 
go down, the texts do not, and so we were able to reach people 
immediately through systems that are funded in the private 
sector but utilized by the public sector very well.
    Chairman Carper. All right. Thanks. Dr. Kellermann.
    Dr. Kellermann. As the health guy at the table, I would say 
it is critically important that public health and the medical 
community be partners in planning as well as in response. In 
disasters and terrorism, people often get hurt, and we have to 
be on the same team to make that work.
    The other point I think that Boston emphasized is you do 
not prepare and put everything in a closet or in a garage and 
lock it away. The best systems are the systems that work well 
day to day, and you raise your game from what you are doing on 
a day-to-day basis, and you are much more capable. The most 
effective cities, the most effective systems in the country, 
are those that are high performers every day of the week, every 
day of the year, not just on the day of the disaster.
    Chairman Carper. All right. Thank you.
    We have been joined by a number of other colleagues: 
Senator Chiesa, a new Senator from New Jersey, a former 
Attorney General, has joined us. Tammy Baldwin, who comes to us 
from the House of Representatives, before that she served with 
distinction in the General Assembly of her State. Former 
Attorney General--two Attorney Generals, like they are bookends 
here, but Kelly Ayotte, it is great to have her here from New 
Hampshire. And Dr. Johnson, a successful business person from 
Wisconsin, has joined us.
    Tom Coburn, who has had any number of careers, including 
health care, a health care provider, a successful business 
person, and a leader here, and I am going to yield to him now 
for his questions.
    Senator Coburn. Thank you.
    Commissioner Davis, just one followup. The city of Boston 
spent $4.7 million in 2008 and 2009 on interoperable 
communications, yet you are still using 400 megahertz. What is 
the plan, and why? Turn your mic on.
    Mr. Davis. Excuse me, Senator. The money that was utilized 
was put into rebuilding the infrastructure that is there. To 
build on a new 800 frequency infrastructure would be much more 
expensive than that, as I understand it. I am not an expert in 
this field, but I do know that we have looked at it very 
closely and the enormous amount of money that is necessary. 
This is a system that covers 2,000 square miles, and it 
services about 11,000 emergency personnel in that area.
    Senator Coburn. So are there plans to go to the higher 
frequency?
    Mr. Davis. That might be better directed at Kurt as far as 
what is happening across the State. I do not know the answer to 
that, Senator.
    Senator Coburn. Mr. Schwartz.
    Mr. Schwartz. Well, our first approach over the years to 
interoperability was to take all of our different systems--so 
we have very high frequency (VHF), UHF, 700, 800--and assure 
that we have regional plans and that all of our systems can 
talk together. So interoperability is a huge success story. 
Boston does not need to be on the 700 or 800 system to talk to 
the State police. We spent the money to figure out how to make 
them talk to each other and that works.
    Now, as we look at the possibility of losing the T-band, 
which will directly impact many communities, we are building a 
core 
700/800 system across the State, and we expect that over the 
next 10 to 15 years many of our partners will move, will 
migrate to the 700 and 800.
    Senator Coburn. All right. Thank you.
    Administrator Serino, of the capabilities utilized in the 
response to the Boston bombings, which ones do you think are 
most important in Boston and are least developed in other 
cities? In other words, we have seen the stellar performance 
here. There is no question about it. That is great, those 
things that are important. What do you see least developed in 
other major cities?
    Mr. Serino. I may be a little biased about Boston. I will--
--
    Senator Coburn. Well, I was biased for you, so let us talk 
about what you see in the other cities.
    Mr. Serino. And I think one of the things that is very 
positive in Boston, as Commissioner Davis mentioned, I think is 
the communication, and I am not talking the radios. I am 
talking the fact that, people are on a first-name basis, 
whether it is Federal, State, local, or the medical community. 
The medical community has been linked in with public safety for 
years, not just since 2001. It actually goes back before that. 
And 2001 helped even reinforce that some more. And the ability 
for the medical community, medical public health and public 
safety community, to actually link together so people can 
understand the language of both groups--you do not see that in 
many places across the country. And I think it is absolutely 
essential that the medical community, the public safety and 
emergency management community are all on the same page. That 
is probably one thing I think that is probably key, and in 
Boston it saved lives.
    Senator Coburn. So you do not think that we are as well 
prepared in other major cities in terms of including the 
medical community into these plans?
    Mr. Serino. I think it is an opportunity that is done very 
well in Boston and can be replicated in other places.
    Senator Coburn. OK. In the past, FEMA has required that 
States spend a certain percentage of grant dollars on specific 
areas, like Improvised Explosive Device (IED) preparedness. 
Should FEMA do more of this or better target that grant 
spending?
    Mr. Serino. With a lot of the grant funding that we have 
developed over the last few years, it is specifically to let 
the communities decide what is best to use rather than being 
specifically on IEDs, but to give a general framework on how 
people can actually utilize their grant funding in order to 
meet, as mentioned earlier, a number of core capabilities. We 
have 31 core capabilities and utilizing the State preparedness 
report and the Threat and Hazard Identification and Risk 
Assessment (THIRA), the threat and hazard assessment reports, 
to utilize those to identify what the issues are, they go from 
the locality to the State to the Federal Government. And then 
look at those, they actually have the localities, the State and 
locals decide what best to use that on that fit in to meet the 
core capabilities and meet what they have identified as their 
main priorities in the localities.
    Senator Coburn. We have heard a lot about the importance of 
exercises and training, especially drills, unannounced drills. 
Dr. Kellermann has responded. What is the right mix of 
spending? A lot of money has been spent on equipment and 
preparedness. What is the right mix? Do we take Boston's 
experience as an example and say here is how they did it?
    On what we heard from Dr. Kellermann, I would love to have 
all three of you comment. The fact that Boston looked at these 
other events in major cities throughout the world had to have 
played a key role in your preparedness for what happened in 
Boston. Have the other large cities in this country done 
similar planning?
    Mr. Serino. As a matter of fact, yes. What Dr. Kellermann 
is referring to is a program called ``Tale of Our Cities'' that 
I actually brought to Boston a number of years ago, 2009, and 
brought people in from Madrid, London, et cetera, and looked at 
how we could actually do that. It was a 3-day event, and during 
that period of time, first they had over 450 responders, the 
second day just the leadership of, again, not just public 
health and public safety but also Federal, State, local, and 
actually changed policy literally that day in how we could look 
at that.
    What we have now done in the Federal level is there is a 
program that we have had at FEMA for a while, the Joint 
Counterterrorism Awareness Workshop (JCTAWS), which brings in 
mainly law enforcement training that was, in fact, done in 
Boston, and what we did is added a second day to that exactly 
or very similar to the Tale of Our Cities, that now we have 
taken around to a number of cities around the country over the 
past couple of years, and now we are going to continue to 
expand that and go to other cities with both the law 
enforcement and the health component to show how that was done. 
And, obviously, we are going to be adding to that from lessons 
learned from Boston.
    Senator Coburn. My time has expired.
    Chairman Carper. Next to question is Senator Johnson, who 
will be followed by Senator Ayotte, Senator Chiesa, and by 
Senator Mark Begich, who chairs the relevant Subcommittee that 
has oversight on FEMA and emergency management, former mayor of 
Anchorage, so these are issues that he has thought a lot about 
and brings a lot of expertise on. And then Senator Baldwin.
    Senator Johnson, you are next. Thank you.

              OPENING STATEMENT OF SENATOR JOHNSON

    Senator Johnson. Well, thank you, Mr. Chairman. I guess I 
would like to start out by echoing some of your comments. It 
always amazes me in these tragedies that we see the absolute 
best in America. I will never forget the pictures of the 
determined faces of the firemen and the police officers on 
September 11, 2001 walking up those stairs. And we saw the 
exact same thing in Boston. When those bombs went off, rather 
than running away from danger, we saw the citizens of Boston 
run toward the danger to help out.
    First of all, I want to thank all of those who responded. I 
want to thank you for your testimony. It is truly remarkable.
    Mr. Schwartz, I truly appreciate your testimony and your 
comments that this really is primarily a State and local 
responsibility. So based on that, first of all, Commissioner 
Davis, I am a numbers guy. What percent of your budget comes 
from the Federal Government, from the State government, and 
from the local government? Just do you have a general sense of 
that?
    Mr. Schwartz. Senator, our budget is primarily a local 
budget. We have about a 10-percent increase in our budget that 
comes from Federal and State grants. The State grants are 
usually pass-throughs from Federal. So most of that money, most 
of that 10 percent of my budget, is coming from the Federal 
Government.
    Senator Johnson. OK, so about 90 percent.
    Mr. Schwartz, in terms of your agency and the State, how 
much is from the State coffers versus the Federal Government?
    Mr. Schwartz. The State Emergency Management Agency as an 
agency is about 50 percent funded through Federal grant 
dollars, and much of that is Emergency Management Performance 
Grant dollars. The numbers across our other key State agencies, 
if you looked at Fire Service and State police, are infinitely 
smaller than that because they are receiving project-specific 
grants.
    Senator Johnson. So in terms of responding really to this 
Boston city bombing, just kind of putting the numbers together, 
90 percent is local, plus in the 10 percent, 50 percent of that 
10 percent, 5 percent is State, and you got 50 percent of that 
coming from the State. So about 92.5 percent is really State 
and local government funding, which underscores your point, Dr. 
Kellermann, that 7.5 percent is Federal Government spending, 
92.5 percent is State and local.
    So, with that in light, because being prepared is 
incredibly important, I guess, Commissioner Davis, the question 
I would have to ask you is: How many cities have contacted 
Boston based on your extraordinary response to this to get some 
tips, some pointers, get some training from what you have done 
right?
    Mr. Davis. There have been dozens of cities within the 
United States and dozens of cities outside the United States 
that have contacted us to share best practices with them.
    Senator Johnson. We have seen an awful lot of abuse here in 
the Federal Government level of conferences and association 
meetings. But here is a real valid use of them, and is it being 
used that way? Do you have national associations that are 
getting together where, when you get similar commissioners or 
you have public safety officials coming together for training, 
for sharing stories, for sharing best practices? And how often 
does that happen?
    Mr. Davis. We do. About once a year there are groups of us 
that travel to different countries. I am headed to the Middle 
East this year. I was there last year. In 2005, I traveled to 
London and worked with Sir Ian Blair just after the Tube 
bombings. And he was able to lay out precisely what the 
Metropolitan Police did in response to the terrorist attack in 
the London Tube.
    That information was extremely valuable to me when I 
arrived on the scene. When I got there, it can be overwhelming 
to see the kind of carnage that was wrought on the city of 
Boston. But because I had been to London and spoken to people 
who have put the case together, I knew precisely the process to 
follow.
    Senator Johnson. Were there other U.S. city police 
commissioners that went with you to London?
    Mr. Davis. There were. Through the----
    Senator Johnson. How many?
    Mr. Davis. There were six of us that traveled over there in 
2005. There were three of us that traveled to the Middle East 
last year. That is largely through the Police Executive 
Research Forum, and they do use Federal money to allow some of 
those trips. So it is working, but I think it should be 
expanded, especially with this threat of terrorism that is 
international.
    Senator Johnson. But, again, from my standpoint, wouldn't 
it be just as efficient to hold those conferences here in the 
United States? And have similar type of conferences occurred?
    Mr. Davis. However it works, absolutely.
    Senator Johnson. But, I mean, have those conferences 
occurred, or are they scheduled to occur?
    Mr. Davis. They have occurred. We have brought people from 
the country of Israel, we have brought people from India. There 
have been people that have come to our national conferences to 
give presentations, including the United Kingdom.
    Senator Johnson. OK. Dr. Kellermann, real quick, what other 
cities are performing at Boston's level?
    Dr. Kellermann. I think the major terrorist cities are at 
or close to that level--New York City, Los Angeles--but others, 
I think, have to raise their game, have to take this seriously. 
The fact that around this country today the most critical arena 
of patient care in any hospital in a disaster, the emergency 
room, is the most congested arena in the hospital is 
unconscionable. Israel, which is a country I admire in their 
no-nonsense, straightforward, practical approach preparedness, 
that is the last place in the hospital they allow to get backed 
up. We have to change that philosophy in this country.
    Senator Johnson. OK. My time is running short, so I have to 
get into the Mirandizing issue. Commissioner Davis, what were 
your thoughts when Dzhokhar Tsarnaev was Mirandized within--how 
many hours? Sixteen hours? I cannot remember the exact 
timeframe.
    Mr. Davis. Right, we received an order from the United 
States Attorney's Office not to Mirandize anyone in connection 
with this incident because it was being prosecuted at the 
Federal level. And I was surprised, but these statutes are 
passed here, and they are implemented by the United States 
Attorney, and we take direction from the people who are in 
charge. At that point in time, the FBI had taken over the 
investigation, and the U.S. Attorney's Office was running the 
investigative part of it. And so I considered that an order 
from the people who were statutorily responsible for this 
investigation. But it was a surprise to me, Senator.
    Senator Johnson. OK. I meant 60 hours, not 16 hours. There 
is no hard and fast rule in terms of when that Mirandizing 
occurs, correct?
    Mr. Davis. Correct.
    Senator Johnson. And we have actually gone--there have been 
instances, precedents where that has gone on for 7 days.
    Mr. Davis. I am not aware of that.
    Senator Johnson. Or beyond. Do you think that would have 
been the appropriate thing to do in this case, hold off 
Mirandizing Dzhokhar, to actually get more information?
    Mr. Davis. In this particular case, no, I think that 
Miranda would have been fine. But we did have an evolving 
threat for a period of time after those bombs were thrown, and 
I can see that there can be unfolding situations where it might 
not be appropriate. So, I mean, I do not want to comment on----
    Senator Johnson. It is true that he stopped talking the 
moment he was Mirandized, correct?
    Mr. Davis. Yes.
    Senator Johnson. We got no further information.
    Mr. Davis. As far as I know.
    Senator Johnson. Thank you, Mr. Commissioner.
    Thank you, Mr. Chairman.
    Chairman Carper. And just to dwell on that question for a 
moment, Dr. Coburn and I have scheduled a followup hearing for 
later this month to look at a timeline leading up to the 
tragedy in Boston before and subsequent to that, and so we will 
save that question for that day as well.
    Senator Coburn. Let me just make a comment, just so 
everybody understands.
    Chairman Carper. Please.
    Senator Coburn. Mirandizing--information collected before 
somebody is Mirandized cannot be used, but you have not 
violated the law if you have not Mirandized somebody. What you 
have done is excluded any evidence that you might have gotten. 
The balance is in collecting evidence that might eliminate 
further events and taking that risk in terms of the conviction 
of one bad actor versus preventing others. So it is a topic 
that should be considered, and I appreciate that we are going 
to do that.
    Chairman Carper. Good. OK.
    Senator Ayotte, please.

              OPENING STATEMENT OF SENATOR AYOTTE

    Senator Ayotte. Thank you, Mr. Chairman. I first of all 
want to thank all of you for being here. Commissioner Davis, I 
just want to thank you for the extraordinary bravery of the 
Boston Police Department and all the law enforcement officers 
and first responders that were involved. It was extraordinary, 
your courage, the way you handled things, professional, and we 
are all incredibly proud of the work that you have done, and, 
really, you do set a shining example for how others should 
handle--we hope that we do not have any more of these 
incidents, but to be prepared for them.
    I am also very proud, having been Attorney General in New 
Hampshire, I know this is not the first time that the Boston 
Police Department has done excellent work, and we have 
cooperated on many cases across borders between Nashua, New 
Hampshire, and Massachusetts, and it has been terrific. We were 
also very proud to send Manchester and Nashua Sea Coast and the 
New Hampshire State Police down, their SWAT and special 
reaction teams, to be able to help and work with you on it. So 
I just want to thank you for that. Our thoughts and prayers 
continue to be obviously with the victims, and those who lost 
limbs at the scene, incredibly brave. Think about a guy like 
Jeff Bauman, the bravery that he showed and others at the 
scene. We will continue to support them and thank you for what 
you have done.
    What I would like to get at is your testimony--having been 
Attorney General (AG), I had a chance to interact with the 
Joint Terrorism Task Force and wanted to get your thoughts on 
what we needed to do to improve the MOU, to make sure that 
agencies like Boston are getting the right information from the 
Federal agencies and that you are treated as an equal partner 
in that information sharing. So I saw your testimony on it and 
wanted to get your insight about what you think should be done.
    Mr. Davis. Thank you, Senator. It has been a pleasure to 
work with you over the years, and Colonel Quinn, who is an old 
friend----
    Senator Ayotte. Yes, he is a great guy. Thank you.
    Mr. Davis. He really is, yes. But they did an incredible 
job in helping us out after the incident.
    After September 11, 2001, I had an opportunity to meet with 
Director Mueller and talk about the help that local police 
could provide to the FBI as a force multiplier in the war 
against terrorism, and the Director was incredibly gracious and 
opened up his offices to us. We have established these JTTFs, 
and they have been working very well.
    But as the Senator said, there is always room for 
improvement, and I think that after this experience, when we go 
back and look at the series of events that occurred, there are 
a couple of things that come to mind. One is that the MOU could 
be worked on from a more equal way so that there was an 
exchange of information, it was not all one-sided; and I think 
that is really important.
    I also think that if there is information that comes in 
about a terrorist threat to a particular city, the local 
officials should have that information. There should be a 
mandate somewhere that the Federal authorities have to share 
that with us so that we can properly defend our community.
    There can be a difference between decisions made for 
prosecutorial reasons and decisions made for public safety. And 
I think that that is the stress that occurs sometimes in these 
investigations. And if we are aware of what the potential 
threat is, we can make our own decision as to what we would do 
with the information, which might be slightly different.
    I am not saying anything was done wrong here, and I am not 
saying that we would have done anything different had we had 
the information that the FBI had prior to this. But I am saying 
that there should be a full and equal partnership where 
everyone is sharing equally.
    Senator Ayotte. Well, Commissioner, I know your 
responsibilities as the head of a large agency in Boston, a 
large city, so the information that the FBI had in advance and 
obviously we will have a separate hearing on, and I know that 
you are talking with the Intelligence Committees about how we 
can make sure that there is better coordination among the 
Federal agencies. I think that is critical that we get at that 
to make sure that things like the terror watchlist are 
effective and the information--did you have any of that in 
advance?
    Mr. Davis. We have four officers who were assigned to the 
JTTF. There is one in each terrorism squad. But we were not 
aware of the information on Tsarnaev and his travel overseas.
    Senator Ayotte. To Russia.
    Mr. Davis. Correct.
    Senator Ayotte. So what we need to do is make sure--you hit 
it right on. I mean, the bottom line is that a local police 
officer is most likely to encounter that individual first as 
opposed to an FBI agent, because you are on the ground, you are 
on the streets every day, and if you do not have that 
information and you encounter someone like Tsarnaev in advance, 
then you do not have the information in your mind as to how to 
treat that individual and what to do with whatever actions they 
are making.
    And so if that information is not flowing down fully to 
State and local in the way it needs to, then we do need to 
address that and make sure we get to the bottom of it, because, 
I know the FBI, they work very hard, they do a good job, but 
they are not on the streets every day. You are. And you are 
likely to encounter that person first. Is that right?
    Mr. Davis. That is correct, Senator. I just want to stress 
we have a tremendous working relationship with them. We are 
full partners in many of the endeavors that we have. But if 
information is compartmentalized and kept away from our Boston 
Regional Intelligence Center, then when my officers stop 
Tsarnaev or someone like him, we are not hitting on that data 
base right away.
    Senator Ayotte. Right.
    Mr. Davis. So we are blind as to the prior information, and 
that puts my officers at risk. So I feel very strongly about 
this.
    Senator Ayotte. So this is something that we can help 
address here by making sure that the information sharing is 
improved and that this MOU, that there is a clear understanding 
that the information cannot just flow one way. And, I have 
great respect for the FBI, too, and as I understand it, the 
cooperation was good here. What was your sense of the State, 
local, Federal cooperation at this investigation?
    Mr. Davis. It could not have been better. My first call was 
to Rick Deslauriers, the Special Agent in Charge (SAC) of the 
FBI. I then called Tim Alben, the colonel of the State police, 
and I said, ``We need Explosive Ordanance Disposal (EOD) units 
and we need SWAT teams, and we need them right away.'' And 
there was no hesitation or delay. They sent them immediately, 
and we worked seamlessly from that moment on. So there was no 
problem during the investigation. It was better than I ever 
could have anticipated.
    Senator Ayotte. That is great. And I had the privilege of 
working some great investigations with the FBI and State and 
local, too, and I want you to know we will make sure we get to 
the bottom of this issue because, again, we cannot have local 
police officers on the streets encountering people like 
Tsarnaev and not have the background, because it is an officer 
safety issue as well as an intelligence-gathering issue. So 
thank you very much for being here today, all of you. I very 
much appreciate your testimony and also, again, thank you for 
your exceptional reaction and response to this terrible 
situation.
    Mr. Davis. Thank you, Senator.
    Chairman Carper. Thank you for those comments and for those 
questions.
    Our next Senator is also a former Attorney General for his 
State, a new Senator, and we are happy that he is here with us, 
and especially on this Committee. Senator Chiesa.

              OPENING STATEMENT OF SENATOR CHIESA

    Senator Chiesa. Thank you, Mr. Chairman, and thanks to all 
of you for being here. I was serving as Attorney General the 
day of the bombings, Commissioner, in particular. I know that 
Colonel Fuentes had said to me, having had a relationship with 
you, that he thought--he knew that the response was going to be 
outstanding, and that is what all of us saw--heroism, 
professionalism.
    And the other thing I was struck by was the cohesion that 
all of the different law enforcement agencies brought to a 
really chaotic situation. No elbowing, no sort of ``I am here, 
this is my turf, this is your turf.'' The sense was and the 
perception was, certainly from my standpoint, an incredibly 
integrated group that was focused on one thing. That was 
keeping people safe, getting them treatment, and then making 
sure that we got the people that did this as quickly as 
possible. So congratulations to all of you for the roles that 
you played, in particular the folks in Boston and the FBI and 
everybody else that was involved.
    I think Senator Ayotte makes an excellent point, and one of 
the things that I always had a lot of consternation about was 
the compartmentalization of information. And I think we have 
taken great steps--I know we have worked really hard on it in 
New Jersey. And what I want to ask you, Commissioner, is--you 
said there are four Boston police department (PD) members on 
the JTTF? How many State police members on the JTTF?
    Mr. Schwartz. There are seven full-time----
    Senator Chiesa. Seven full-time? And how did you make those 
determinations for the numbers that you would have sitting 
full-time on the JTTF?
    Mr. Davis. The decisions have been made over the years 
based upon our staffing and where we could get bodies to put 
into that unit. And as the issue ebbs and flows, we have 
maintained the same number of people. But after conversations I 
have had with Ray Kelly in New York City and some of my other 
colleagues, I think that it is time to increase the number of 
officers that are there so that we can have a wider presence at 
the JTTF. That might help the communications issue.
    Senator Chiesa. I want to talk to you a little about the 
fusion centers. I know immediately following there was--what I 
noticed during this time was that information was flowing to 
different States. So there were some contacts in New Jersey 
that had to be run down. There were contacts in other States, 
certainly New York, that had to be run down. And I got 
debriefed afterwards and went to our fusion center, and I was 
really impressed with the way we were able to coordinate that 
information.
    What is your impression of the effectiveness of the fusion 
centers being used specifically for this incident, and then 
steps that you may be taking to improve the way you are able to 
utilize those resources going forward?
    Mr. Davis. Well, I think that it is really important to 
engage the fusion centers in a more active way with the JTTFs. 
There are different models of that across the Nation. But there 
could be an improvement in the coordination of information 
among the agencies, especially DHS and some of the analytical 
ability that they bring to the process, and making sure that 
information is better shared. That is sort of the area that the 
Chiefs Association, the Major City Chiefs would like to enter 
into by looking at the MOU, so that that MOU can be crafted so 
that there is a real--it has got teeth in it to push the 
information both ways.
    Senator Chiesa. Right. And when other cities or other 
communities call you and other nations call you about your 
response, what advice do you give them to place where fusion 
centers have been stood up? And there is certainly always a 
debate as to--there is intelligence that comes from street 
crime that is used for the fusion centers, which is very 
effective to combat gun violence and combat gang violence. They 
were set up, though, primarily and in large measure post 9/11 
to make sure that we were coordinating the information on 
potential terrorism activity.
    So what advice do you have for other cities in terms of 
creating the correct balance in allocating the resources for 
the fusion centers to deal with those two competing interests?
    Mr. Davis. I really think it is important to brief cases 
out jointly so that there is an intelligence flow back and 
forth. And the information that comes in from the street can be 
extremely helpful to ongoing JTTF investigations.
    So my officers can access all of our systems, but there is 
limited access to Federal systems, and that is where the rub 
is. Names can fall through the cracks here the way it is set 
up.
    Senator Chiesa. And what are the ways that you think this 
Committee can help with getting rid of some of those things 
falling through the cracks? Specifically I am talking about the 
fusion centers, which I know have a lot of THIRA money behind 
them. What can we talk about or what are the steps that we 
should be thinking about to help in that regard?
    Mr. Davis. I just believe that generally a rule that says 
if there is threat information on terrorism in a particular 
jurisdiction, the jurisdiction has to be brought into the 
conversation about it. Even if the case is closed out, we 
should know what the allegation was. And at this point in time, 
that is not happening.
    Senator Chiesa. I think a lot of this has to do with 
developing relationships, and I think somebody remarked before 
that you should not be handing out business cards at the scene 
of one of these incidents. I think that is an excellent point, 
and so over your years in developing these relationships, I 
think that is a critical issue, and I think you could see the 
effectiveness that it had with all of you working together that 
day. And I know that this tension exists in other 
jurisdictions, and we deal with it in other places, and it is 
not designed in any way to undermine our ability to do these 
investigations. I think there are people that think they are 
better situated than others, better trained, or whatever you 
want to call it.
    So what I hope this Committee will think about and I hope 
that all of you will continue to give us information about is 
the ways that we can continue to help those relationships 
become solidified in ways that there are trust--and I am not 
just talking about the ones where regionally, in Boston and New 
Hampshire, where people have worked together over time, but I 
think Senator Coburn talked before about these conferences, and 
some conferences are better than other conferences. Well, the 
conferences that we get all of you in a room together to talk 
about terrorism activities and sharing information seems to me 
to be a really good way to spend our money and have you spend 
your time.
    Would you agree with that?
    Mr. Davis. I agree completely.
    Senator Chiesa. OK. Thank you, Mr. Chairman.
    Chairman Carper. Thank you.
    Dr. Coburn and Senator Carl Levin have spent a fair amount 
of time in the last Congress looking at fusion centers, finding 
out which ones work, which ones do not, and to see what we can 
learn to make sure that more of them work effectively. So 
thanks for that line of questioning.
    Senator Begich, again, former mayor of Anchorage, and 
someone who chairs the relevant Subcommittee that focuses 
directly on emergency preparedness and FEMA, is now recognized. 
Thank you.

              OPENING STATEMENT OF SENATOR BEGICH

    Senator Begich. Thank you, Mr. Chairman. Thank you very 
much. I actually want to followup real quick on the fusion 
center, and maybe, Mr. Davis, you can answer this, or whoever 
would like to answer this. But in this situation, how would you 
grade the fusion center activity in response or participation?
    Mr. Davis. In response, the fusion center worked very well. 
We have a means to communicate through secure rooms. We have a 
Sensitive Compartmented Information Facility (SCIF) in the 
communications center, in our BRIC, Boston Regional 
Intelligence Center, our fusion center. And that fusion center 
was able to talk directly to the FBI command post, and they 
were processing information. We had had some contact with some 
of the peripheral individuals in this, and we fed that 
information immediately to the investigators.
    So in the aftermath, everybody pulled together. And 
subsequent to that, in preparation for July 4th, there were 
some really excellent conversations that occurred that had not 
happened previously about each threat that was out there. So I 
think we have come a long way, but I would like to see that 
memorialized in writing so that it----
    Senator Begich. Like a memorandum of agreement or some sort 
of understanding.
    Mr. Davis. Correct. Yes, sir.
    Senator Begich. Let me ask you, and then I want to go to 
another line of questioning, if I can, but you had mentioned 
limited access of Federal systems or information flow. Do you 
know, is that by regulation or is it by law that the two-way 
street of information flow is not as good as you would like it? 
And if you do not know that, I do not mean to----
    Mr. Davis. It is by regulation, so that within the MOU 
there are specific pieces in there that prohibit a two-way flow 
of information.
    Senator Begich. OK.
    Mr. Davis. A task force officer cannot just report 
information back to his superiors at the local department.
    Senator Begich. So this is something that through Homeland 
Security or FEMA or whatever the right organization is, 
depending on who you are dealing with, FBI or whatever those 
MOUs are with, it is something that they could, change by, 
sitting down and looking at. Kind of an after-incident report 
of what happened in Boston as an example of where a better flow 
of information maybe previous to that incident might have had 
some positive impact in preventing the event. Is that a fair 
statement?
    Mr. Davis. It is, but it is a twofold issue. It is not 
simply the MOU. It is also the cultural issue.
    Senator Begich. Understood. But, I mean, nothing 
legislatively prohibits them----
    Mr. Davis. No, nothing.
    Senator Begich. OK. That was my second part, and you hit 
it, and that is kind of the internal cultural environment of 
some of our Federal agencies. We hold information we get from 
you. And I know as a former mayor, our police department had an 
ongoing effort, especially with gang activity, to try to make 
sure information flowed because we were on the streets every 
minute every day dealing with these incident, and what we ended 
up doing, and especially around the gang issue, we actually 
hired city prosecutors, put them in the U.S. Attorney's Office 
so we could have a better relationship. And it actually worked 
very successfully, but we had to create a new environment. We 
did not have to do it legislatively. We could do it by 
regulation, and that is kind of what you see, but also the 
culture. Is that something that is so deep and ingrained, do 
you think, in the agencies that will take time to happen, or 
can it happen fairly rapidly because the new understanding of 
these incidences are that they--could be homegrown, like this 
example?
    Mr. Davis. I think it can happen rapidly, Senator. This is 
a problem that is not simply in Federal agencies. This is 
endemic to policing. I have had units within my own department 
that would not talk to each other.
    Senator Begich. Right.
    Mr. Davis. So this is a constant cultural thing that my 
colleagues are working against in local police agencies. But we 
have made great progress on it. So if you train it up and 
supervise it, you can make a difference. I know we did a lot of 
training on the front end, new recruits coming in and trying to 
make sure that when they came in, they understood kind of the 
new culture. I mean, it used to be in police work, even though 
a police officer would tell you they are not in the social 
service work, lots of times there is a connection between the 
two, when they do work in schools, for example, which 20 years 
ago was really not the situation. They would just show up to 
schools, and extract someone. Now it is a different approach. 
That took a change in how we trained them at the front end so 
when they hit the streets they were ready and prepared.
    Senator Begich. Is that kind of one of the big pieces that 
we need to be thinking about?
    Mr. Davis. Absolutely. It is organizational change, 
something I have become very good at over two police 
departments. But believe me, it is a problem in every 
organization. We have to be vigilant and sustain the change.
    Senator Begich. Let me ask you one more question, and I 
want to change my topic in this question. That is, I know for a 
lot of the equipment and activity you were able to utilize--or 
some of the equipment, armored cars, command posts, robots, so 
forth, there is Federal money related sometimes with grant 
dollars that are coming in. Because the way we are dealing with 
our Federal budget, which is not so great, to be frank with 
you, that those dollars are going this way, is there going to 
be local ability to pick that slack up or is there going to be 
a gap?
    Mr. Davis. There is going to be a gap, Senator. No 
question.
    Senator Begich. OK. And I will not go into my diatribe on 
how we do our budgets around here. I will leave that. But your 
statement is that there will be a gap, no question about it.
    Mr. Davis. There is no doubt.
    Senator Begich. Let me ask to the Federal agency folks who 
maybe--and if I pronounce this wrong, I apologize. Is it 
``Serrana? ''
    Mr. Serino. ``Serino.''
    Senator Begich. ``Serino.'' Let me ask you this question, 
if I can. I know one of the issues we have had, as on grants is 
the accountability of grants. Let us take, for example, the 
incident in Boston. Are you going to do anything that reviews 
how those Federal dollars that went to purchase equipment, how 
those were utilized and improvements on that or positives that 
could be shared with us? Is that something that you are doing 
or will do in the future?
    Mr. Serino. We have actually done a lot of that already----
    Senator Begich. Fantastic.
    Mr. Serino [continuing]. Working closely with the State and 
the city, is looked at specifically what equipment and also 
training and exercise.
    Senator Begich. Right.
    Mr. Serino. You asked about equipment. That was actually 
utilized during the marathon and the week following, and a fair 
amount of the equipment was used in that. And I think one thing 
that we have also strived to do is to look at it as not just a 
city capability but a regional capability. And, again, Boston 
and Massachusetts and outside the State have done that very 
well. There were a number of other police departments and 
agencies that brought some of their Homeland Security-funded 
equipment to the scene to help out with that as well.
    Senator Begich. And if I can ask--and I will do some 
followup with you from the Subcommittee standpoint because I 
think we would be very interested in that because, as you know, 
we had a hearing a few weeks ago on grants, as you will recall.
    The last question I will just put out there to whoever 
wants to respond, and I know we have seen it in Boston, I have 
seen it in Galena, Alaska, recently where citizens, stepped up 
to the plate very rapidly. Is there something more--and anyone 
can answer this--we can do to train up or prepare? I know in 
Anchorage when I was mayor, our goal was that every single city 
employee would be Cardiopulmonary resuscitation (CPR) trained, 
for example, because we thought 3,000 people on the street 
every day is a powerful tool in case of a situation, single 
incident or multiple incident.
    Do you think there is something more that can be done that 
we could do or that we could encourage to be done?
    Mr. Serino. I think there is a lot that can be done, and I 
think an example of that, again, was in Boston, that the 
civilians helped out, utilized tourniquets, utilized simple 
things as direct pressure to control a lot of the bleeding and, 
in fact, saved lives. And, in fact, in the grant guidance that 
we gave out for this year, for both the State Homeland Security 
Grants and the UASI grants, we actually put language in there 
as a priority that they could use the money additionally to 
train people for mass casualties and to look at that. And we 
have been working with the International Association of Chiefs 
of Police (IACP), fire chiefs, EMS, et cetera, to look at how 
we can actually utilize civilians to help train people and get 
people to do some basic simple things that, in fact, do save 
lives.
    Senator Begich. Very good.
    Dr. Kellermann. Around the world and in communities, 
bystanders and neighbors are the real first responders. That is 
a huge asset that our country can take advantage of.
    Senator Begich. Very good. Thank you very much, Mr. 
Chairman.
    Chairman Carper. You bet. There is a lot left on the table 
here, I would say, Senator Begich, in terms of issues to 
explore. As I said earlier, Dr. Coburn and I are going to hold 
a hearing in a couple of weeks that focuses on the timeline 
leading up to the Boston tragedy and the aftermath and the 
investigations and so forth. But there is a huge amount of 
lessons learned here. In the National Governors Association 
(NGA), we had something called ``Center for Best Practices,'' a 
clearinghouse for good ideas and find out what was working in 
Massachusetts, Oklahoma, Wisconsin, or Alaska and see if we 
could export it and bring it back. But there are a lot of good 
lessons learned here, and we are just scratching the surface, I 
think. But I know you and Senator Paul have plenty of 
opportunity to explore. Good. Thanks.
    All right. Senator Baldwin, thank you for joining us very 
much.

              OPENING STATEMENT OF SENATOR BALDWIN

    Senator Baldwin. Thank you, Mr. Chairman. And, gentlemen, 
thank you all for being here today and for your testimony, and 
particularly for your public service. The men and women who you 
lead have the gratitude of all Wisconsinites, but in particular 
those who were present in Boston to participate in the marathon 
or to cheer on their friends and loved ones.
    I would like to direct my questions to Deputy Administrator 
Serino. It is obvious that Federal support has played a 
critical role in helping State and local government, as we can 
see from the Boston experience, prepare for these catastrophic 
events. And, one of the key lessons learned here has been the 
importance of building relationships between the various levels 
of government and conducting joint exercises on a wide range of 
scenarios.
    I want to just focus on my home State of Wisconsin. We have 
benefited over many years from significant grant funding to 
help our State and local governments effectively respond should 
a tragedy strike. However, a lot of the assistance ended in 
2010 when the city of Milwaukee was removed from the Urban Area 
Security Initiative.
    Now, a recent audit released this year from the Department 
of Homeland Security's Inspector General gave pretty strong 
reviews to how Wisconsin had utilized the earlier funds 
received in the State, but that said, I think that we will be 
much better prepared to protect the people with sufficient 
Federal support.
    In Wisconsin, we have two fusion centers--one in Milwaukee, 
the other in Madison--and these centers do, I think, a really 
great job on a day-to-day basis coordinating among local, 
State, and Federal authorities. But without adequate emergency 
management performance grants, they will have difficulties 
ramping up in the event of a very significant challenge or 
tragedy. Moreover, without such grants, cooperative exercises 
to prepare for such incidents really are not possible.
    So I would like to hear your thoughts, recognizing the very 
constrained funding environment in which we live right now, 
please speak to how FEMA can help cities and regions like 
southeast Wisconsin, which have been removed from the Tier 2 
list of critical cities.
    Mr. Serino. Thank you, Senator. Actually, I had the 
opportunity to go out to Milwaukee a couple of times and 
actually visit the fusion center in Milwaukee and saw Chief 
Flynn, who I knew from when he was in the Boston area as well. 
And in Milwaukee, they actually have a pretty comprehensive 
integrated fusion center that works with a lot of the different 
agencies.
    As we look to continue to move forward, the emergency 
management performance grants are still in place and have the 
ability to utilize those, how the State and localities deem 
fit, some for their personnel and also if they need it for 
exercises as well.
    I think as we move on and continue, a lot of this can be 
done at the local level. A lot of these, as Dr. Kellermann 
mentioned earlier, some exercises can also be done fairly 
inexpensively. It is a lot of times getting people together, 
holding, if you will, some tabletop exercises and realizing 
that it is a priority.
    Some of the grant funds that we use for the UASI grant in 
Milwaukee, we were able to buy some of the equipment that they 
needed, but also to build in the capabilities and to go forward 
even though they are still not receiving the funds, they still 
have a lot of the capabilities that were built up during that 
period of time.
    Senator Baldwin. I know that Wisconsin and our Division of 
Emergency Management are thinking ahead and thinking about how 
to do things on a tighter budget. And one of the things that 
they are hoping to focus on is the ability to respond to cyber 
threats. I know this is part of the jurisdiction of this 
Committee, and we are working earnestly on that.
    But last year, the Wisconsin National Guard worked with the 
University of Wisconsin to launch a volunteer cybersecurity 
initiative to deal with these challenges, but in part because 
of the very voluntary nature of it, it ended up falling 
through. And so, perhaps you can speak specifically to 
cybersecurity as we move forward. How can FEMA help a State 
like Wisconsin or other States prepare for the increasing 
concerns of either cyber threats, cyber terrorism, or a cyber 
component of a larger threat?
    Mr. Serino. I think a lot of it is with the cyber threat is 
something that is real and something that we are dealing with, 
and I think within FEMA and more broadly within the Department 
of Homeland Security, actually has a number of programs that 
are actually dealing with cybersecurity, both with the National 
Protection and Programs Directorate (NPPD), the National 
preparedness division within the Department of Homeland 
Security, and a cyber office there is reaching out through the 
State fusion centers in order to educate people and look at 
some opportunities both for education and things that they can 
do, and we are sharing that on a regular basis at a Department 
level, not necessarily through a FEMA level.
    Senator Baldwin. OK. Thank you.
    Chairman Carper. I have been struck by any number of things 
that our panel has said today. One of the things that I want to 
return to deals with communications, and we had some discussion 
of 400-megahertz systems, 800-megahertz systems, and 
interoperability of those different systems.
    But what I wanted to come back to, as you, Mr. Davis, have 
talked about, is the communications that goes beyond radio 
systems. You all seem to do a pretty good job of facilitating 
communications between different units, different levels of 
government, the emergency medical providers, the hospitals, the 
law enforcement folks. Pretty extraordinary.
    We are a little State. We have not quite a million people, 
and we like to say in Delaware that on a good day you can get 
just about anybody you need to in a room and solve most of the 
problems that we face as a State. That is a bit of an 
exaggeration, but we know each other and we work pretty well 
across party lines. You all seem to somehow have figured that 
out, at least in this instance as well. Talk to us about how in 
a big metropolitan area a lot of players, a lot of egos, that 
you are somehow able to have mastered this, been able to 
communicate. I like to ask people who have been married a long 
time, I like to ask them what is the secret for being married a 
long time, and people married 40, 50, 60 years, and I get some 
hilarious answers. Last month, I talked to a couple that had 
been married 54 years, and I said, ``Ma'am, what is the 
secret''--she was standing next to her husband. I said, ``What 
is the secret for being married 54 years?'' And she looked at 
him, and she said, ``He will tell you that he can be right or 
he can be happy, but he cannot be both.'' [Laughter.]
    The best answer I have ever heard to the question, though, 
what is the secret of being married for a long time, is the two 
C's: communicate and compromise. Communicate and compromise. 
That is actually the key to a vibrant democracy.
    But you all are doing a pretty job on communications. Let 
us just talk a little bit more about that. Tell us what you 
think.
    Mr. Davis. Well, thank you, Senator. I think that the 
communication among the law enforcement agencies is fairly 
simple to describe. It occurs because we work together on a lot 
of different challenges day in and day out, so we are 
constantly either in each other's offices or talking about an 
investigation that is going on, a crisis, as Kurt described, 
that we have to deal with, the water crisis, for instance, when 
the Massachusetts Water Resources Authority (MWRA) link to the 
reservoirs broke. That required us to get all hands on deck and 
to do logistical planning and delivery of water to places on 
the fly, very quickly. It had not been prepared for. But it 
informed the collaborative process that was continued.
    And I think that if you continually make planning or 
processes involve everyone and everybody is at the table, there 
is a personal knowledge that develops, even in a large 
metropolitan area like Boston.
    And then the ego issue is very important. Everybody has an 
ego at the table, but when we come together, we are guided by 
the law and by the rule of law, and the people who are at those 
tables put their egos in their back pockets and do what the law 
dictates but also concentrate on that collaborative kind of 
working together attitude to get the job done.
    Rick Deslauriers said, ``One team, one mission,'' through 
the whole process, and I think that that is a good indication 
of how it was dealt with.
    Chairman Carper. One of my favorite saying is, ``There is 
no `I' in the word `team.' '' And you certainly indicated that.
    Dr. Coburn, did you want to say something? I have a couple 
more questions.
    Senator Coburn. OK.
    Chairman Carper. I promise not to go on today like I did 
yesterday.
    I want us to go back and talk a little bit about the 
medical response, and I think I said earlier on, tragically, 
sadly, three people died. And for them and for their families, 
we mourn even today their loss. But other people who were 
injured did not die and are alive today. In some cases, lives 
changed dramatically, but they are alive today. And we hope 
they are surrounded with the kind of support that they need.
    Talk to us about the involvement, if you will, of the 
medical community, the hospitals and the emergency medical 
first responders. Talk to us about how they were involved and 
were able to be part of the team and such an effective part of 
the team. How did that happen?
    Mr. Davis. I'm just going to speak briefly. I think Rick 
Serino, because of his experience in Boston, has a very good 
working knowledge.
    Chairman Carper. Please.
    Mr. Davis. Just briefly, it was not just the medical people 
who were on duty. It was the medical people who were at the 
tents to take care of people who were dehydrated and----
    Chairman Carper. Do I understand that the number of docs, 
for example, that were there that day was sort of doubled from 
maybe in previous years? I have heard from 60 to 120 because of 
the dehydration challenges earlier.
    Mr. Davis. I do not know the answer to that, but Rick 
says----
    Chairman Carper. Yes, I think that----
    Mr. Davis. I guess the point I wanted to make real briefly 
was those doctors sprung into action. Doctors who were running 
by that were in the marathon came over to assist. It happened 
in Boston where the medical care is just extraordinary, and I 
cannot say enough about the medical personnel. They cleared a 
hundred operating rooms within 15 minutes and opened them up to 
trauma. So it was an incredible example of work that was done 
in the field and also in the hospitals.
    Chairman Carper. Mr. Serino.
    Mr. Serino. A number of things that happened, I think the 
Commissioner mentioned it, is that there was a medical tent 
that could treat up to 250 people just about a block away, half 
a block away from the finish line that was set up to take care 
of people. With that, there are a number of medical volunteers 
including physicians, nurses, physical therapists, and people 
just to help out. And supporting that is a combination of the 
city's emergency medical services, also with some private 
services to help with transport. There were EMTs, paramedics on 
bicycles, on all-terrain vehicles in order to help move them as 
well. Plus it was linked ahead of time with the hospitals. The 
hospitals all played a key role in this, and it happened to 
happen at shift change as well at the hospitals which played 
another key role in that. And it was also a holiday in Boston, 
in Massachusetts, which meant the operating rooms were a little 
less. There were a number of things that played into it.
    But there was also the fact that there was a lot of 
practice that went into this. There were a number of examples. 
In fact, in talking to a number of people at various hospitals, 
we had done a drill a few years ago that simulated two 
airliners crashed, 500 people were hurt and taken to various 
hospitals. In talking to some of the emergency physicians, they 
actually remembered that when they got to the ER, this is what 
we did during the drill: we did this, this, and this. I talked 
to EMTs and paramedics who were on the ground who said that as 
soon as this happened, they remembered this is what they have 
to do. They have to go look at the--they have to do--and their 
training kicked right in. They realized the potential for 
secondary devices, EMTs, who notified law enforcement.
    So it was not just--as I said earlier, it was not an 
accident. This was something that was done and drilled and 
trained many times.
    Chairman Carper. Thank you. Thank you both for those 
responses. Dr. Coburn.
    Senator Coburn. I think that reinforces Dr. Kellermann's 
testimony in terms of drills being important. It is not just 
training and equipment.
    Commissioner, I wanted to ask you, what equipment did you 
not have that you needed?
    Mr. Davis. We had excellent equipment. There was nothing 
that we needed that we did not have.
    Senator Coburn. And 10 percent of your budget comes from 
the Federal Government--or 7.5 percent, as Senator Johnson 
said. So, one of the problems with some of our grants and the 
lack of oversight is there is a point in time when we are 
equipped up, and so then it should become maintenance of what 
we have rather than purchasing new equipment. And so even 
though we are in a tight budget system, we have spent a lot of 
money, Federal dollars in terms of grants, bringing the 
equipment forward, and I think we have shown that that has been 
very beneficial in terms of the Boston Marathon bombing.
    Secretary Schwartz, I want to ask you a couple of things. 
What are the major differences between the Commonwealth Fusion 
Center and the Boston Regional Intelligence Center?
    Mr. Schwartz. Well----
    Senator Coburn. And why do you have both?
    Mr. Schwartz. Well, I can speak to the Commonwealth Fusion 
Center. I think the Commissioner can speak to the BRIC. But the 
Commonwealth Fusion Center serves the whole State and is an 
all-crimes fusion center. As Commissioner Davis alluded to 
earlier, there are lots of different models out there for 
fusion centers. We have all-hazards fusion centers, terrorism 
fusion centers, all-crimes. We happen to be primarily an all-
crimes fusion center that has invested a considerable amount of 
money over the years in building the capacity to tie into 
locally gathered information and intelligence and to be able to 
analyze that and connect dots between, on the terrorism side, 
terrorism threats and terrorism information that may be coming 
from the top down and connecting the dots with information that 
is gathered at the local level. And that is not just suspicious 
activity reports, which are sort of the easy thing, but it is 
all of the daily police work that is done every day, all of the 
incident reports across all 351 cities and towns, the thousands 
and thousands of incident reports that are generated every day, 
building a capacity to analyze the information in those.
    So we are serving a statewide function. We have a 
significant presence in the JTTF, I believe seven full-time 
now. That number is down from what it was a number of years ago 
for budget reasons, although Colonel Alben and Secretary Cabral 
have recently been talking about a way to increase those 
numbers. Our full-time JTTF troopers are part of our fusion 
center, are commanded by the commanding officer of the fusion 
center. We have DHS and FBI intel analysts in our fusion 
center.
    I think the Commissioner can speak to the BRIC, but I think 
they fulfill very different functions, although compatible, and 
work very closely together and with the JTTF.
    Senator Coburn. And what are those different functions?
    Mr. Davis. I think, Senator, it is a matter of volume. 
Major Quinn, who runs the State fusion center, and 
Superintendent Paul Fitzgerald are in daily contact working on 
issues that go back and forth. As Kurt said, there are 350 
cities and towns in Massachusetts, but there are about a dozen 
that are contiguous to Boston that have well over a million 
residents and drive the crime numbers in the State. So there is 
a lot of criminal activity occurring there, and so the Boston 
Regional Intelligence Center, is focused on what is happening 
in those contiguous communities, and the coordination of 
intelligence and deconfliction of investigations, there is an 
enormous amount of work being done by those individuals in the 
BRIC. We have now incorporated a real-time crime center into 
that, the type that New York has been using so that we can 
inform officers going to the scene of intelligence that is 
occurring.
    So it really is a dynamic all-hazard location, but it 
really is a matter of volume.
    Senator Coburn. Did the Commonwealth Fusion Center provide 
information or actionable intelligence to anyone after the 
bombings that was not provided through any other channels? And 
if so, what was it?
    Mr. Davis. I do not believe they did.
    Senator Coburn. All right. We have heard a lot about the 
value of training and exercises like Urban Shield. When we 
looked at your data, we saw that about 83 percent of the grant 
spending from 2008 to 2010 was categorized under ``Equipment 
and Planning,'' not ``Training and Exercises.'' Is that data 
accurate, Mr. Schwartz?
    Mr. Schwartz. The data you have, the raw data you have is 
accurate. I do not have the percentages in front of me.
    Senator Coburn. OK. $1.3 million of the 2008 grant funds 
were spent on an IED planning contract with a company called 
Global Incorporated. Do you know what the outcome of that was?
    Mr. Schwartz. I do not.
    Senator Coburn. All right. Can you answer that for the 
record?
    Mr. Schwartz. I can. I will go back and look. I do not know 
whether that is on the UASI side or from our four regions that 
are outside the UASI. But we can look at that, yes.
    Senator Coburn. And according to your data, relatively few 
dollars from 2010, 2011, or 2012 grant years have yet been 
spent. Is that correct?
    Mr. Schwartz. It is not correct. There are some very large 
reimbursements that are--millions of dollars that are not 
captured in what you have because those are just being paid 
now.
    Senator Coburn. Will you send that to us, please?
    Mr. Schwartz. Absolutely.
    Senator Coburn. Thank you.
    Was there anything from the Commonwealth Fusion Center--did 
you have access to any information on the Tsarnaevs?
    Mr. Schwartz. Are you talking prior to their 
identification?
    Senator Coburn. Yes.
    Mr. Schwartz. The answer in the Commonwealth Fusion Center 
again is the same as you heard from Commissioner Davis. 
Although we have full-time troopers assigned to the JTTF, none 
of our troopers participated in the interviews or the 
preliminary inquiry that was conducted a number of years ago. 
So we were not aware through any participation, and none of our 
troopers had any reason to ever query their names prior to 
April 19. So prior to April 19, nobody in the State police had 
any knowledge of the Tsarnaev brothers.
    Senator Coburn. All right. Thank you.
    Chairman Carper. Next, Senator Johnson, Senator Ayotte, 
then Senator Chiesa. A vote has been scheduled for noon, and we 
will wrap up shortly after that. But, Senator Johnson, you are 
recognized.
    Senator Johnson. Thank you, Mr. Chairman.
    I would like to talk a little bit about the camera 
surveillance system. Obviously, with the disclosures on the 
National Security Agency (NSA) data collection, there has been 
a pretty large public debate now about the balance between 
privacy, civil liberties, and security.
    What was the State of the camera surveillance system on the 
streets of Boston that day?
    Mr. Davis. We have two sets of cameras, Senator. We have 
cameras that are set up for traffic control, and they are in 
the downtown area. So there were several cameras that were 
around the neighborhood, but not directly on the route. So we 
were not using cameras that were on the marathon route for law 
enforcement purposes at that time.
    Our homeland security cameras are on the major 
thoroughfares that allow exit from the city, and those were 
mostly in the neighborhoods. There is a significant amount of 
violence that occurs in the neighborhoods, and that is where we 
had focused our cameras prior to this.
    Senator Johnson. So who paid for those systems? You said 
homeland security cameras. Is that paid by the Federal 
Government?
    Mr. Davis. That is correct.
    Senator Johnson. And then the traffic control or----
    Mr. Davis. The traffic cam was probably from transportation 
grants, but the city has purchased them as well.
    Senator Johnson. Do those cameras have a dual purpose? In a 
case like this, can you refer to those? Are those clear enough?
    Mr. Davis. They have a problem with clarity, and they also 
were not recorded until just a few days after the marathon. So 
we have just got transportation to start to record those 
cameras so we can go back and look at them.
    Senator Johnson. I am concerned about civil liberties as 
well as anybody, but I was certainly hoping there were cameras 
on the streets that would identify these individuals. Did you 
have a similar type of reaction? Did you wish you had had more 
cameras on the streets at that point in time?
    Mr. Davis. In hindsight, cameras along that route and some 
other key locations I think are a very important addition to 
our security plan. But what was good about this was the 
community pushed cameras forward, and businesses all are using 
video at their businesses. So we were able to access those 
businesses very quickly, and critical information came from the 
community through cameras.
    Senator Johnson. That is primarily how we ID'd these 
individuals, correct, was private cameras, private businesses, 
and just private citizens?
    Mr. Davis. People on the street taking photos, yes, sir.
    Senator Johnson. OK. Mr. Serino, I would like to talk--and 
maybe these questions will be better suited for our next 
hearing, but I would still like to talk a little bit about 
Homeland Security's role in the older Tsarnaev brother's exit 
of the United States and then coming back in and the system 
that is set up to track that, to be pinged. It is true that 
DHS--your system was pinged that he left the country, correct?
    Mr. Serino. That is a different part within DHS and 
something that we would be happy to get back to you with the 
appropriate people in the Department. I am more in the FEMA 
area.
    Senator Johnson. OK. Then I will just save those questions 
for later, and, Mr. Chairman, I will end my questioning at this 
point in time. Thank you.
    Chairman Carper. Fair enough. Good. You will have ample 
opportunity, and we will welcome that line of questioning at 
our next hearing.
    Senator Johnson. Thanks.
    Chairman Carper. General Ayotte.
    Senator Ayotte. Thank you, Mr. Chairman.
    I just wanted to followup on the question that Dr. Coburn 
asked because I think it gets back to the issue, Commissioner, 
that we were talking about before, where, Secretary Schwartz, 
whether it is the BRIC or the fusion center, if the Feds and 
FBI, if we are not sharing, or Homeland are not sharing the 
interaction or the trip, for example, overseas by Tsarnaev with 
those systems, then, of course, it is not going to be in there, 
right?
    Mr. Davis. Correct.
    Senator Ayotte. And so, therefore, when you query it, your 
men and women on the streets would not have that background 
even if they stopped that individual for a traffic stop, 
correct?
    Mr. Davis. That is correct, Senator.
    Senator Ayotte. So that is the issue we have to get at. We 
have to get at it to make sure it is not a one-way street. And 
like I said, with great respect for the FBI, it cannot be a 
one-way street. And so for the fusion centers to work and for 
the BRICs to work and for our information sharing, we have to 
make sure that whatever we do know about someone like Tsarnaev 
in terms of what the Federal agencies are interacting with him, 
if he gets on the watchlist or he is a person of interest or 
how we do that and tag that, that needs to flow for you so when 
your officers on the street encounter him, frankly you can give 
that information to the FBI, too, and that we are all working 
together hopefully to do whatever we can to prevent these kind 
of attacks, and then also to make sure that officers on the 
ground have the right information to interact with people 
appropriately. Is that right?
    Mr. Davis. Correct, Senator. If we do that, we are much 
stronger as a Nation. If we do not, it puts our communities and 
my officers at risk.
    Senator Ayotte. Yes, that is the issue that we have to get 
at. And, again, I think you are on the streets every day. The 
FBI does a great job, but they are not on the streets every day 
in the way that the local officers are or, in New Hampshire it 
is local and State police, who are on the roads every day and 
who are going to interact or encounter this person and can 
understand who they are dealing with, and also transmit that 
information to the Federal Government so that they can use that 
in their information gathering against terrorists.
    So I really appreciate all of you being here today, and 
thank you for bringing this forward, because this is something 
I think this Committee really can focus on to help make sure 
that that information sharing is going both ways so that in the 
future you will have more information at the ground level. And, 
again, I just want to thank you all for what you do and what 
you have done here and for the extraordinary work done by those 
that you represent in your officers.
    Mr. Davis. Thank you, Senator. I appreciate it.
    Senator Ayotte. Thank you.
    Chairman Carper. As we say in political commercials, ``I am 
Tom Carper, and I approve this message.''
    Senator Ayotte. Well, thank you, Tom.
    Chairman Carper. I could not have said it better.
    Senator Ayotte. I think we can do something about this. We 
should.
    Chairman Carper. Yes, you bet. Jeff.
    Senator Chiesa. Thank you, Mr. Chairman.
    This is for Mr. Schwartz and Commissioner Davis. Looking 
back at the way the information was disseminated the day of the 
bombing, having two fusion centers, has there been any 
discussion--understanding that there are volume concerns that 
would overwhelm either one of them, are there discussions 
underway to combine the resources or to create a single 
clearinghouse for all of the information? Or is that something 
that you do not think is either feasible or productive for your 
communities?
    Mr. Schwartz. For the reasons articulated by Commissioner 
Davis, the focus of these two fusion centers is so different 
that we do not have a problem that needs fixing, from my 
perspective. We have two very good fusion centers. They work 
collaboratively on a daily basis. So to me there is not a 
problem to fix. So I am not aware of any discussions or need to 
go down the path of consolidation.
    Senator Chiesa. I am not suggesting there is a problem. I 
am interested--we had one in New Jersey, and I thought it was a 
very effective way to say here is our clearinghouse for the way 
information comes in, irrespective of the type of information. 
And so I am interested to find out from the two of you, so you 
are telling me that you think it is an effective and useful way 
to disseminate the information and that you do not feel that 
the information is either not getting where it needs to get, 
there is no breakdown in communication between the two because 
that would be catastrophic if that were to occur, and that your 
communities are served in a productive way?
    Mr. Davis. Yes, I concur with Kurt. I believe that the way 
the system has been organized and set up is very effective. 
There is a very close working relationship between the two 
fusion centers, and there is a whole State to take care of. 
There are big cities outside of Boston that need to have the 
full attention of the State system.
    There is a danger of being swallowed up in the constant 
activity in the metropolitan area that could occur if they were 
combined. So it works right now. I think that both commanders 
of both units would tell you that this is working very well, 
there is no problem with the communication of information, and, 
I like it the way it is.
    Senator Chiesa. Thanks for all your time today.
    Thank you, Mr. Chairman.
    Chairman Carper. Senator Chiesa, thank you for being here 
for the entire hearing. I thought this has been an excellent 
hearing. Thank you for being a part of it.
    I have one more question, and we are going to start voting 
in about 5 minutes, but one more question and then maybe a 
closing statement.
    One of the things I sometimes do at a hearing, especially 
one like this where there are a lot of lessons learned--you are 
all asked to give an opening statement, and sometimes I find it 
helpful to ask you to give us a short, brief closing statement. 
So I am going to telegraph a pitch, and the pitch is you are 
going to get a chance to say a few more words, and I would ask 
you just to think about it. And it could be just something that 
you feel is just a real important takeaway for my colleagues 
and me and for our staff. It could be something that you have 
thought of listening to others speak on the panel. Repetition 
is fine. You could all say the same thing if it is something 
you really want us to focus on and be mindful of. That works as 
well.
    My last question focuses on recovery. We talked a lot about 
the response today to the disaster. Later this month, Dr. 
Coburn and I will hold the hearing we talked about, alluded to 
where we focus on, if you will, the timeline leading up to the 
tragedy, the law enforcement activities during that immediate 
aftermath of the bombings, and then the ultimate apprehension 
and interrogation of suspects.
    But I want to close by just talking about recovery, because 
we focus a whole lot on the response to the disaster but not so 
much yet on how to recover. Officials have said that this might 
change in the future and that recovery might be incorporated 
into future exercises. And I think maybe as much for Mr. 
Schwartz, but others are welcome to chime in if they want, but 
let us talk about this. Did unexpected challenges pop up during 
the recovery that maybe the Commonwealth, maybe the city of 
Boston needed to be better prepared for? If so, what might they 
be?
    Mr. Schwartz. Well, there are always unexpected challenges 
in any recovery, and there were in this, though I commend the 
city for thinking about and moving to recovery very quickly. 
Within hours of the bombings, the city opened its first 
assistance center, and that is a step toward recovery, the very 
night of the bombings where some people that had to sleep in a 
city shelter. Runners that were stranded could not reconnect, 
so recovery started very quickly with an assistance center 
looking to reunite family members who scattered, runners that 
were disconnected from their possessions, crisis counseling, 
the Federal Government, FEMA, and DHS, the city and the State 
all brought a lot of crisis counseling services to bear, and we 
began those discussions just hours after the bombing and had 
local, State, and Federal teams on the ground starting the very 
next day. The city opened a business assistance center. The 
Boylston Street area is a very heavy, dense business area. 
There were dozens and dozens, more than a hundred businesses 
impacted. So the city opened a business assistance center very 
quickly. The Small Business Administration came in at the 
Governor's request within days.
    So were there challenges? Yes. One of the city's 
takeaways--I have spoken with my counterpart in the city, and 
she would like to focus some more time and energy in moving 
forward in training and exercises on the recovery side. So 
recovery is always challenging, but the need to engage in 
recovery was recognized right away. The city and the State and 
the Federal Government partnered right from the onset about 
bringing recovery resources to bear.
    Chairman Carper. OK. Mr. Serino, how can FEMA help State or 
local folks to be better prepared with respect to the recovery? 
Is there anything that comes to mind?
    Mr. Serino. I think there are a couple of things. I think 
incorporating going forward into some of our national drills to 
actually look at recovery, part of the National Disaster 
Recovery Framework that recently came out. And I think that is 
an important part, and as Undersecretary Schwartz mentioned, we 
had this conversation literally hours after the bombings in the 
command post to actually look at how we can start to address 
some of the recovery issues. But I think recovery is an 
important part of any sort of disaster, and sometimes even the 
longest part of an incident is the recovery, and we view that 
as very important and are going to continue to work toward that 
and develop various drills and exercises for that, and we have 
already.
    Chairman Carper. All right. Thank you.
    For closing statements, I am going to recognize first Dr. 
Kellermann. I really want to thank you again for joining us 
today. When you started speaking--where did you grow up, 
anyway?
    Dr. Kellermann. Tennessee, sir.
    Chairman Carper. My wife went to graduate school there, so 
I thought I would have to get her to come in and interpret what 
you were saying. [Laughter.]
    But I caught on pretty quick.
    Dr. Kellermann. Good.
    Chairman Carper. But I thank Dr. Coburn and his staff for 
recommending that you be invited to participate, and we are 
glad that you were able to. But just maybe a closing statement, 
if you would, please.
    Dr. Kellermann. Thank you. Two things.
    First, we cannot continue to make our policy decisions 
based on the last disaster. We have done that for the last 15 
years. It does not work.
    Chairman Carper. I spent a lot of years in the Navy. We 
were really good at fighting the last war.
    Dr. Kellermann. We cannot keep fighting the last war. We 
cannot keep reacting to the last disaster. Hospitals in Boston 
were not stressed. The number of trauma patients any one 
hospital got was very manageable. We cannot put seven trauma 
centers in every American city. Massachusetts can barely afford 
it. Our Nation cannot afford it. We have to raise our game in 
America's hospitals. Hospitals cannot respond and be islands of 
strength and recovery if they do not survive the disaster. And 
New York Hurricane Sandy taught us 7 years after New Orleans 
Hurricane Katrina that we are not paying attention to hospital 
security and the strength of hospital infrastructure, so they 
can be a source of strength for a community.
    Chairman Carper. All right. Good. Thank you very much for 
that. Mr. Davis.
    Mr. Davis. Mr. Chairman, I would say please continue what 
you have been doing. The money, the training, the equipment 
made it possible for us to do what we did after this happened. 
Working diligently on improving our systems of intelligence 
sharing and continuing what we are doing around preparation and 
response is really the lesson that I have learned from this.
    Thank you, sir.
    Chairman Carper. Yes, thank you. Mr. Schwartz.
    Mr. Schwartz. First, the bombings illustrate our need to 
focus more of our time and energy on catastrophic disaster 
planning, major disaster planning. We did well here, but change 
the scenario just a little bit in a number of different ways, 
and we might have had different outcomes. So we need to 
continue to focus on preparing for these large-scale disasters, 
worrying about mass care and sheltering, evacuation, large-
scale communications failures, distributing critical 
commodities. And related is while we have been focused on a 
terrorist attack, I want to underscore that many of the 
capabilities we brought to bear to respond to this terrorist 
attack were built in an all-hazards world.
    As I said earlier, we have had 16 Presidential Disaster 
Declarations since 2008, one of those for a terrorist attack. 
So we need to continue to focus in the all-hazards world and 
the capabilities we build can be transferred back and forth and 
are interchangeable.
    Chairman Carper. Thank you. Mr. Serino.
    Mr. Serino. And then we have to followup with what Kurt 
said about if you look at the all-hazards, people that were on-
scene that day to take care of injured runners and to make sure 
traffic flowed and to make sure people were safe from the 
marathon, quickly turned from that all-hazards in order to make 
a difference in people's lives, that this was truly, as we call 
it, a whole community response. It was police officers, 
firefighters, EMTs, paramedics. It was volunteers. It was 
members of the community, the public that came up and saved 
lives. It really made a difference. But ``Boston Strong'' was 
no accident. It was years of planning, years of training, years 
of purchasing the right equipment for the right people at the 
right time, and it saved lives.
    Chairman Carper. Thank you. We hold a lot of hearings here 
in the Senate and over in the House as well. Some of them are 
valuable, very valuable, and some are somewhat valuable. This 
has been a most valuable hearing, and this has been an 
exceptional panel. Thank you very much for your statements and 
for your responses to our questions.
    I am delighted, I am very proud of the Members of this 
Committee. I am glad they were able to come. They have a lot of 
committees they serve on, so they could have been in any number 
of other places. But I am really pleased that they were able to 
come, and for Jeff over here, the former AG from New Jersey 
staying with us right to the end, I thank him.
    I spoke with Senator Begich as he was just about to leave a 
few minutes ago just to reiterate the great opportunity for him 
and Senator Paul who chair our relevant Subcommittee that 
focuses on FEMA, emergency response. There is a treasure trove 
of information for us to mine and to disseminate as best we can 
across the country. And that is not just our responsibility. 
That is a shared responsibility, as you know.
    But we thank you on behalf of my colleagues and myself and 
our staffs. I just want to say to our staffs, you all did a 
great job, minority and majority staff, helping to put all this 
together as you have. But since September 11, 2001 our country 
has worked hard to strengthen our ability, one, to prevent 
terrorist attacks and, when prevention fails, to try to 
mitigate the effects of those attacks.
    The Boston Marathon terrorist attack unfortunately put our 
response and our mitigation systems to a real test, and from 
what we have heard today, we have Boston and Massachusetts 
first responders, emergency planners, law enforcement 
personnel, medical workers, and marathon officials, and just a 
lot of citizens to thank for this. I think the cities and towns 
and States from coast to coast could be well served, would be 
well served if they knew and could learn the lessons that we 
have learned and been reminded of here today in this hearing.
    First, training and real-life exercises like Urban Shield 
can save lives. They can help prepare first responders for 
dealing with the chaos that ensues in the aftermath of a 
disaster by helping them build the kind of relationships that 
we talked about needed to work together effectively.
    Second, the city and the State's emergency services planned 
and prepared for the worst-case scenarios, and as a result, 
many of the resources needed for an effective response were in 
place at the time of the bombing.
    And, last, while Boston's preparedness for and response to 
the attacks were clear strengths, city and State officials have 
noted that more attention needs to be paid to helping the city 
cope with the long-term recovery efforts that follow a 
disaster.
    Again, on behalf of all of us, thank you. I think you used 
the term ``Boston Strong.'' I am a huge baseball fan. I am a 
huge Detroit Tigers fan. But I always root for whoever is 
playing against the Yankees. Some of the best baseball games I 
have ever seen were in Fenway Park, with the Tigers and also 
with the Yankees. Great baseball. But the folks in Boston and 
the folks in Massachusetts made us enormously proud with the 
way you responded as a team to an awful tragedy and saved lives 
and made sure that out of a horrible situation a lot of good 
actually came. And hopefully in our efforts to mine the data, 
mine what worked, and maybe what did not work so well, some 
more good is going to come out of a bad situation, a very bad, 
tragic situation, and help prepare another community, another 
city, another State for a disaster. And there are plenty of 
disasters that threaten us. Part of our challenge is to make 
sure that they do not occur and that we stop them, nip them in 
the bud, and that we do that 24/7. But sometimes they get, as 
we have seen here, tragic. Sometimes they get by us, and 
something awful happens, and we have to respond. And you 
responded beautifully.
    Thank you again for joining us today for a wonderful 
hearing, and with that, I am going to go vote, and we will call 
it a day. Thank you.
    [Whereupon, at 12:11 p.m., the Committee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T2575.001

[GRAPHIC] [TIFF OMITTED] T2575.056

[GRAPHIC] [TIFF OMITTED] T2575.057

[GRAPHIC] [TIFF OMITTED] T2575.058

[GRAPHIC] [TIFF OMITTED] T2575.002

[GRAPHIC] [TIFF OMITTED] T2575.003

[GRAPHIC] [TIFF OMITTED] T2575.004

[GRAPHIC] [TIFF OMITTED] T2575.005

[GRAPHIC] [TIFF OMITTED] T2575.006

[GRAPHIC] [TIFF OMITTED] T2575.007

[GRAPHIC] [TIFF OMITTED] T2575.008

[GRAPHIC] [TIFF OMITTED] T2575.009

[GRAPHIC] [TIFF OMITTED] T2575.010

[GRAPHIC] [TIFF OMITTED] T2575.011

[GRAPHIC] [TIFF OMITTED] T2575.012

[GRAPHIC] [TIFF OMITTED] T2575.013

[GRAPHIC] [TIFF OMITTED] T2575.014

[GRAPHIC] [TIFF OMITTED] T2575.015

[GRAPHIC] [TIFF OMITTED] T2575.016

[GRAPHIC] [TIFF OMITTED] T2575.017

[GRAPHIC] [TIFF OMITTED] T2575.018

[GRAPHIC] [TIFF OMITTED] T2575.019

[GRAPHIC] [TIFF OMITTED] T2575.020

[GRAPHIC] [TIFF OMITTED] T2575.021

[GRAPHIC] [TIFF OMITTED] T2575.022

[GRAPHIC] [TIFF OMITTED] T2575.023

[GRAPHIC] [TIFF OMITTED] T2575.024

[GRAPHIC] [TIFF OMITTED] T2575.025

[GRAPHIC] [TIFF OMITTED] T2575.026

[GRAPHIC] [TIFF OMITTED] T2575.027

[GRAPHIC] [TIFF OMITTED] T2575.028

[GRAPHIC] [TIFF OMITTED] T2575.029

[GRAPHIC] [TIFF OMITTED] T2575.030

[GRAPHIC] [TIFF OMITTED] T2575.031

[GRAPHIC] [TIFF OMITTED] T2575.032

[GRAPHIC] [TIFF OMITTED] T2575.033

[GRAPHIC] [TIFF OMITTED] T2575.034

[GRAPHIC] [TIFF OMITTED] T2575.035

[GRAPHIC] [TIFF OMITTED] T2575.036

[GRAPHIC] [TIFF OMITTED] T2575.037

[GRAPHIC] [TIFF OMITTED] T2575.038

[GRAPHIC] [TIFF OMITTED] T2575.059

[GRAPHIC] [TIFF OMITTED] T2575.060

[GRAPHIC] [TIFF OMITTED] T2575.061

[GRAPHIC] [TIFF OMITTED] T2575.039

[GRAPHIC] [TIFF OMITTED] T2575.040

[GRAPHIC] [TIFF OMITTED] T2575.041

[GRAPHIC] [TIFF OMITTED] T2575.042

[GRAPHIC] [TIFF OMITTED] T2575.043

[GRAPHIC] [TIFF OMITTED] T2575.044

[GRAPHIC] [TIFF OMITTED] T2575.045

[GRAPHIC] [TIFF OMITTED] T2575.046

[GRAPHIC] [TIFF OMITTED] T2575.047

[GRAPHIC] [TIFF OMITTED] T2575.048

[GRAPHIC] [TIFF OMITTED] T2575.049

[GRAPHIC] [TIFF OMITTED] T2575.050

[GRAPHIC] [TIFF OMITTED] T2575.051

[GRAPHIC] [TIFF OMITTED] T2575.052

[GRAPHIC] [TIFF OMITTED] T2575.053

[GRAPHIC] [TIFF OMITTED] T2575.054

[GRAPHIC] [TIFF OMITTED] T2575.055

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
